Title  : Number 14--NSF OIG Semiannual Report to the Congress
Type   : Report
NSF Org: OIG
Date   : June 17, 1996
File   : oig14


National Science Foundation
Office of Inspector General


Semiannual Report to the Congress

Number 14

October 1, 1995 - March 31, 1996




LETTER TO THE NATIONAL SCIENCE BOARD
AND THE CONGRESS


This report describes our activities and accomplishments for the
first half of FY 1996.  Section 5 of the Inspector General Act of
1978, as amended, requires that the National Science Board transmit
this report to the Congress within 30 days of its receipt along
with any comments the Board may wish to make.

As described in the following pages, NSF and OIG operations were
substantially curtailed in this reporting period because of agency
closures due to funding lapses and heavy snowfall.  In particular,
we are concerned that our ability to complete a full audit of NSF's
FY 1996 financial statements will be substantially impaired as a
result of contracting delays directly attributable to these work
interruptions.

We are pleased that, after the close of this reporting period, the
Congress signed an omnibus appropriation bill that will fund  NSF
until the end of this fiscal year.  Despite the interruptions, OIG
completed four inspections, as planned; investigations recovered
over $6 million; and  OIG audits and inspections identified over $7
million in potential cost savings for NSF.  We continued to reduce
our backlog of misconduct in science cases.  We look forward to
working with agency leadership to meet the challenges remaining in
this fiscal year.


Linda G. Sundro
Inspector General
April 30, 1996



EXECUTIVE SUMMARY


Funding Lapses and Heavy
Snowfall Close NSF Operations

NSF is still recovering from the effects of closures due to funding
lapses and heavy snowfall that forced the agency to close for 21
working days.


Financial Audits

Cost and compliance audits identified $4.5 million in questioned
costs.

The Ocean Drilling Program could allocate an additional $4.46
million for research over 5 years by reducing the costs of certain
publications.

The Office of Polar Programs decided to implement cost savings by
limiting NSF funds used to pay  hardship "bonuses" for contract
employees in Antarctica.

As cognizant federal audit agency, we recommended that other
federal agencies limit fees paid to an atmospheric research
organization.

In preparation for our audit of NSF's FY 1996 financial statements,
we recommended improvements in the administration of NSF's
financial systems.


Investigations

Over $6 million was recovered from companies that fraudulently
received federal awards under the Small Business Innovation
Research program.  Our investigations resulted in a felony
conviction, an indictment, and two civil settlements.


Misconduct in Science

We conducted a study of the ethical codes published by professional
societies.  NSF's Deputy Director issued misconduct findings in
three cases.


Inspections

We conducted four inspections; one recommended ways in which
significant cost savings could be realized.  An inspection at a
state university identified noncompliance with NSF's Investigator
Financial Disclosure Policy and material deficiencies in the
university's financial disclosure policy for principal
investigators.


Legal

The Comptroller General issued an opinion permitting NSF to use
appropriated funds to pay for the National Science Board's annual
awards dinner.



CLOSURES DUE TO FUNDING LAPSES
AND HEAVY SNOWFALL
CURTAIL AGENCY OPERATIONS

The Inspector General Act of 1978 requires that we report on
significant problems relating to the administration of NSF programs
and operations.  In this reporting period, Congress and the
President could not agree on FY 1996 spending levels for NSF (and
most other federal agencies) by October 1, 1995, when the existing
funding expired.  On September 30, 1995, Congress passed, and the
President signed, a short-term spending bill (called a continuing
resolution or "CR") that kept federal agencies open until midnight
on Monday, November 13.  This CR extended the time allotted for
Congress and the President to agree on spending levels; however,
they could not reach an agreement during this extension period.

The first shutdown began on Tuesday, November 14, 1995.  NSF's
1,300 employees reported to work and were told to spend the
remainder of the workday (not to exceed 8 hours) preparing for
agency closure. Employees were not permitted to remain in the
building and work, even if they were willing to work without pay.
Only NSF's 2 full-time Presidential employees (the Director and
Deputy Director) and an "excepted" skeleton staff of approximately
24 career employees were permitted to remain.

Although an agreement on FY 1996 spending levels was not reached,
a CR was passed on November 17 that funded NSF and most other
federal agencies until midnight on Friday, December 15.  NSF
employees and contractors returned to work on Monday,
November 20.  Work at the agency had been significantly curtailed
for 4 working days.  A National Science Board meeting, which had
been scheduled for November 16 and 17, was canceled.

Between November 19 and December 15, the President and Congress
agreed on bills to fund some federal agencies, but NSF's
appropriation was not among them.  So, when NSF's employees
reported for duty on Monday, December 18, they were told that the
agency would close again.  This time, employees and contractors
were only allowed 3 hours for "shutdown activities."  The second
shutdown lasted until January 6, 1996, and disrupted agency
activities for 13 working days.

Another CR was signed on January 6, 1996, that would have permitted
agency employees to return to work on Monday, January 8.  However,
a blizzard forced federal offices in the Washington, D.C.,
metropolitan area to close from January 8 through 10.  Many
workers were able to return to work on Thursday, January 11, but
another snowstorm forced federal offices to close again on Friday,
January 12.  Monday, January 15, was a federal holiday in
observance of the birth of the Rev. Dr. Martin Luther King, Jr.
Most routine work did not resume at NSF until Tuesday, January 16-
almost 1 month to the day after the December closure.


OIG Activities Curtailed

OIG was able to accommodate the 4-day November shutdown, but the
second shutdown and blizzard had a significant effect on this
office's ability to perform its duties.  The months of December and
January are important audit planning months for our office.  During
this time, audit sites are chosen, audit teams are assigned, and
audit programs are refined.  Because of the closures, this planning
process was significantly curtailed.

The annual audit of NSF's financial statements in accordance with
the Chief  Financial Officers (CFO) Act was due on March 1, 1996.
We received the financial statements for NSF's FY 1995 Donations
Account (totaling $40 million) for audit on Thursday, December 14,
one day before the second shutdown.  As a result, instead of having
about 11 weeks to audit these statements, we had about 6 weeks.  We
were able to complete CFO audit work in time to meet the statutory
deadline, but at significant expense to other important projects.
In FY 1996, we will be required to audit financial statements that
cover all NSF operations (totaling $3.2 billion) for the first
time.  We were forced to delay plans for this greatly expanded
audit requirement.  We are also concerned about the delay in a
major audit contract solicitation that is necessary to complete the
FY 1996 CFO audit.  NSF's contracting office could not process the
CFO audit contract solicitation, or any other agency contract
solicitation, during the second shutdown and blizzard.  This delay,
when combined with planning delays and the contracting backlog
engendered by both shutdowns, will adversely affect our FY 1996 CFO
audit schedule.

An OIG inspection team was on-site in New Mexico when the agency
closed on November 14.  Even though the team had planned to work
on-site 3 more days, team members were forced to return to the
office and to reschedule the remainder of the inspection for later
in the month.  Another inspection had to be postponed as a result
of the second shutdown, and significant delays in the production of
inspection reports and the planning and execution of future
inspections persist.

Similarly, the shutdowns delayed the processing of about 80
misconduct in science cases.  In particular, four major cases with
recommended findings of misconduct that we had planned to send to
the Office of the Director in this reporting period have been
delayed.

We estimate that, in addition to work that was delayed or deferred,
OIG incurred approximately $187,000 in costs directly related to
the agency shutdowns.  This amount includes costs primarily
associated with employee salaries for the period in which OIG staff
members were furloughed and rescheduled travel.


Effect Upon the Agency

NSF incurred significant costs associated with these shutdowns.
Congress and the President agreed to retroactively pay federal
employees for both furloughs.  At NSF, salaries and benefits paid
to employees and contractors for the two periods during which they
were not permitted to work totaled approximately $6.5 million.  In
addition, about $129,000 was spent on activities directly
associated with planning for and recovering from the shutdowns (for
example, communicating with contractors about the terms of the
shutdowns, rescheduling work on major projects, and making special
arrangements to keep external customers informed about the status
of NSF operations, etc.).  Loss of the November 1995 meeting of the
National Science Board required deferral of action on major awards
and delayed the submission of Science and Engineering Indicators,
1996, to the President and the Congress, as required by law.

By January 16, 1996, 40,000 pieces of mail, including 2,860 funding
proposals, had accumulated, unopened, in NSF's mailroom (where only
a skeleton staff operated during the shutdowns).  The agency also
received a flood of proposals after it reopened in mid-January. To
handle this unprecedented workload, NSF's Proposal Processing Unit
and mailroom put their staffs on 12-hour shifts and paid about
$24,000 in overtime salaries to agency and contract employees.  NSF
also authorized approximately $1,200 in overtime for its warehouse
contractor to respond to a backlog of 1,500 requests for forms and
publications from the public.

The shutdowns resulted in the cancellation of about 21 proposal
review panels--most of which were rescheduled.  Six special grant
competitions were canceled, and 15 were delayed.  Many of NSF's
scientists and engineers missed professional meetings during the
shutdowns because they were not permitted to be on official travel
while the government was closed.  In one instance, $2,500 in
prepaid hotel costs and conference fees was lost when four
employees were unable to attend an out-of-town computer conference.
One of NSF's management seminars for new program officers had to be
canceled, which resulted not only in deferral of valuable training,
but also in a loss of about $1,000 in travel costs that NSF paid
for the contract seminar leader.

NSF typically makes about 80 awards per business day.  During the
first shutdown, NSF did not make any new awards or any increments
on existing continuing awards.  During the second shutdown, no new
awards were made, although the Office of Management and Budget did
permit NSF to use FY 1995 money to fund increments to existing
awards.  Some of NSF's funded organizations incurred additional
costs directly as a result of the government closures.  For
example, a supercomputer center did not receive an expected payment
from NSF in December and therefore it could not make a lease
payment on its facility.  As a result, the center incurred a late
payment charge of over $36,000.


Human Costs of the Furlough

NSF's shutdowns caused anxiety and financial hardship for many
agency employees since their pay was interrupted and they had only
informal assurances from government officials that they would be
paid for the furlough periods. Even "excepted" workers, who were
compelled to work during furlough periods, were not paid on time.
Eventually, federal employees received their salaries and benefits
for both shutdowns.  This avoided compounding any injustice to
federal workers, but at considerable expense to taxpayers.

Workers at the lower end of the pay scale felt the effects of the
pay interruption most severely.  NSF employees received only a
partial paycheck on December 29 for the pay period that ended on
December 23, 1995.  Federal employees who are furloughed are
considered unemployed, and some NSF employees filed for
unemployment insurance benefits.  NSF's Division of Human Resource
Management (HRM) received about 900 unemployment compensation claim
forms during the two shutdowns. However, because of the timetable
set by Virginia's Unemployment Commission for processing claims, no
NSF employee actually received unemployment insurance benefits for
either furlough. HRM also sent letters to landlords and creditors
explaining why payments would be late.  NSF's employees' bargaining
union received about 100 telephone calls for help and responded by
establishing a Food Drive and Emergency Cash Fund.  During the
second shutdown, 54 individuals applied to NSF's credit union for
personal loans, and 41 of these loan requests were approved. The
average amount of these loans was $1,500.  Half of the employees
who applied for loans earned under $25,000 annually.  On January
12, 1996, employees received a paycheck for 120 hours of work--this
covered furlough days for the last pay period in December and the
first full pay period of 1996.

Many of NSF's contract employees also experienced difficult
financial times. Over 100 contract employees perform on-site
administrative services for NSF.  These services include security,
computer maintenance, and mail processing.  Some contract employees
were terminated, but most were rehired when the second shutdown
ended.  For the most part, contractors tried to pay their employees
during the shutdowns.  They permitted employees to work part-time,
advanced employees leave, allowed employees to share jobs, and
rotated periods of nonpay status.  One company provided loans to
employees it could not pay who had financial emergencies.  We
estimate that contract employees lost about $20,000 in salaries,
and the companies lost about $155,000 in payments from NSF as a
result of the shutdowns.

The two closures caused the longest work stoppage in NSF's history.
The agency will be working for many months to make up for lost
time.  Some of the adverse effects on employee morale, confidence
and commitment, and finances may linger after the work is made up.
Dr. Neal Lane, NSF's Director, stated, "I think [the furlough] has
done irreversible damage not just to government service but also to
science in this country.  I don't know when we will recover from
it."


TABLE OF CONTENTS


AUDIT

INVESTIGATIONS

OVERSIGHT

LEGAL

AGENCY REFUSAL TO PROVIDE
INFORMATION OR ASSISTANCE

SIGNIFICANT MANAGEMENT
DECISIONS THAT WERE REVISED

INSPECTOR GENERAL'S DISAGREEMENT
WITH SIGNIFICANT MANAGEMENT DECISIONS

LIST OF REPORTS

STATISTICAL INFORMATION REQUIRED BY
THE INSPECTOR GENERAL ACT OF 1978, AS AMENDED

INSPECTOR GENERAL REPORTS

EXTERNAL AUDIT REPORTS WITH
OUTSTANDING MANAGEMENT DECISIONS

ADDITIONAL PERFORMANCE MEASURE


ACRONYMS


CFO       Chief Financial Officer
CPO       Division of Contracts, Policy and Oversight
DCAA      Defense Contract Audit Agency
DGA       Division of Grants and Agreements
DIS       Division of Information Services
DoD       Department of Defense
EDP       Electronic Data Processing
FAS       Financial Accounting System
FCTR      Federal Cash Transactions Report
HHS       Department of Health and Human Services
IPA       Intergovernmental Personnel Act
NSB       National Science Board
ODP       Ocean Drilling Program
OGC       Office of General Counsel
OGE       Office of Government Ethics
OMB       Office of Management and Budget
OPP       Office of Polar Programs
PI        Principal Investigator
REU       Research Experiences for Undergraduates
SBIR      Small Business Innovation Research Program
SSI       Statewide Systemic Initiative


REPORTING REQUIREMENTS


The table cross-references the reporting requirements prescribed by
the Inspector General Act of 1978, as amended, to the specific
pages in the report where they are addressed.


Requirements

Section 4(a)(2)     Review of Legislation and Regulation

Section (5)(1)      Significant Problems, Abuses, and Deficiencies

                    Recommendations With Respect to Significant
Section (5)(2)      Problems, Abuses, and Deficiencies

                    Prior Significant Recommendations on Which
Section (5)(3)      Corrective Action Has Not Been Completed

Section (5)(4)      Matters Referred to Prosecutive Authorities

                    Summary of Instances Where
Section (5)(5)      Information Was Refused

Section (5)(6)      List of Audit Reports

Section (5)(7)      Summary of Each Particularly Significant Report

                    Statistical Table Showing Number of Reports and
Section (5)(8)      Dollar Value of Questioned Costs

                    Statistical Table Showing Number of Reports and
                    Dollar Value of Recommendations That Funds Be
Section (5)(9)      Put to Better Use

                    Summary of Each Audit Issued Before
                    This Reporting Period for Which No
                    Management Decision Was Made by the
Section (5)(10)     End of the Reporting Period

Section (5)(11)     Significant Revised Management Decisions

                    Significant Management Decisions
Section (5)(12)     With Which the Inspector General Disagrees



AUDIT


The Office of Audit is responsible for auditing grants, contracts,
and cooperative agreements funded by NSF's programs.  It also
reviews agency operations and ensures that financial,
administrative, and program aspects of agency operations are
reviewed.  The Office evaluates internal controls, reviews data
processing systems, and follows up on the  implementation of
recommendations included in audit reports.  In addition, the Office
assists in the financial, internal control, and compliance portions
of OIG inspections.  All audit reports are referred to NSF
management for action or information.  The Office of Audit advises
and assists NSF in resolving audit recommendations.  The Office
also acts as a liaison between NSF and audit groups from the
private sector and other federal agencies by arranging for special
reviews, obtaining information, and providing technical advice.
The Office of Audit provides speakers and staff assistance at
seminars and courses sponsored by NSF and other federal agencies
and at related professional and scientific meetings.


PROMOTING EFFICIENT USE
OF NSF FUNDS
__________________________________________________________________

Helping NSF increase the cost-effectiveness of its expenditures is
a fundamental objective of our office under the Inspector General
Act, which requires that we "provide leadership and coordination
and recommend policies for activities designed to promote economy,
efficiency, and effectiveness in the administration of" NSF's
programs and operations.  Such activities will be increasingly
important as budgetary pressures mount in coming years.
__________________________________________________________________


For FY 1997, the President has requested $3.32 billion in funding
for NSF.  This represents only a small increase over NSF's FY 1996
budget.  Given these budgetary constraints, we review NSF's
programs to help NSF identify expenditures that can be redirected.
By eliminating less critical expenditures, NSF can devote more
funding to innovation in research and education.  In this reporting
period, we identified over $7 million in NSF funds that we believe
could be better used to support core science and engineering
research and education.

Procedures for Resolving Recommendations
That NSF Funds Be Put to Better Use

The Inspector General Act requires that we include in every
semiannual report to the Congress the dollar amounts of costs we
have questioned and recommendations we have made for funds to be
put to better use.

We generate "questioned costs" by conducting cost and compliance
audits of NSF awardees.  These audits assess whether award funds
are being spent properly, as specified by the individual award's
terms and conditions as well as government-wide guidelines
published by the Office of Management and Budget (OMB).  NSF and
the award recipient resolve questioned costs.

We usually identify funds that could be put to better use by
reviewing NSF programs, policies, and procedures in an attempt to
identify ways money could be saved and made available elsewhere
within the program.  When we make recommendations that NSF put
funds to better use, we engage in discussions with NSF program
officials; NSF awardees are usually not involved in the resolution
process.

__________________________________________________________________

Funds to Be Put
to Better Use

Funds the OIG has identified in an audit recommendation that could
be used more efficiently by reducing outlays, deobligating program
or operational funds, avoiding unnecessary expenditures, or taking
other efficiency measures.
__________________________________________________________________


     Cost and Compliance Audit Findings Result in Questioned Costs.
OIG financial audits focus on compliance with federal requirements;
the sufficiency of the organization's internal control structure;
and the allowability, allocability, and reasonableness of costs
that were actually charged to the award.  After reviewing the
awardee's procedures, the auditors prepare a report that includes
their opinion on the adequacy of the documentation in the areas
mentioned above.  To ensure that the awardee is complying with
federal requirements, the auditors check for compliance with
federal laws and regulations, the provisions of NSF's Grant Policy
Manual, and the specific terms and conditions of the award(s) being
audited.  In reviewing the organization's internal control
structure, the auditors determine whether the awardee's policies
and procedures regarding its internal control structure are
sufficient to provide reasonable assurance that the federal funds
provided to the organization are spent properly.  The auditors also
ensure that the policies and procedures are put into practice.  The
auditors also test the allowability, allocability, and
reasonableness of claimed costs, which may ultimately result in the
return of funds to NSF. The auditors test a variety of claimed osts
to determine whether the charges are allowable under federal law,
allocable to the particular award, and  reasonable.  If the claimed
costs do not meet all three of these requirements, they are
"questioned," that is, the agency's audit resolution office is
asked to decide whether the cost will be paid or "disallowed."

Once the auditors have completed their review, they draft an audit
report.  We send the awardee a copy of that draft audit report.
The awardee may then respond to the findings in the draft audit
report, and that response is included in the final report.  When
the report is final, it is sent to NSF financial specialists in the
Division of Grants and Agreements (DGA) and the Division of
Contracts, Policy and Oversight (CPO) for formal distribution and
resolution. DGA and CPO review the recommendations in the report
and resolve the issues raised with the awardee.  During the
resolution process, DGA and CPO keep us informed of their progress.

     Recommendations That Funds be Put to Better Use.  In the
course of a cost and compliance audit, we sometimes observe
instances where NSF may save money by changing its own policies or
procedures for an award or program.  We also conduct focused
reviews of NSF programs, which may identify a way to modify NSF's
management of a program that would result in  cost savings.  We
make recommendations for agency action to realize these savings and
use the funds to achieve NSF's core scientific and educational
objectives more efficiently.  Our recommendations often involve
prospective changes to NSF's management of a particular award or
program.  We specify where we believe cost savings can and should
be realized, but program staff always have broad discretion to
decide whether to adopt these savings, and, if they do, to decide
how saved funds can be used to further the program's core
scientific and educational objectives.

The process used for deciding whether to implement cost saving
recommendations is different from the resolution process for
questioned costs.  Because our recommendations often involve
funding decisions by NSF management, we direct our findings to the
responsible NSF program office, rather than to NSF's financial
administrators.  The program office has an opportunity to respond
informally to our recommendations after it receives a discussion
draft of our report.  After considering the program office's
response, we issue a second draft, which is resubmitted to the NSF
program office so that it may formally respond in writing.  When we
receive the written response to our second draft, we make any final
changes to the report we feel are appropriate and attach NSF's
response.  At this point, the report is "final" and becomes
available to the public under the Freedom of Information Act.

Recommendations that funds be put to better use are resolved
through discussions between OIG and the NSF program office; we do
not direct our recommendations to awardees because the
recommendations involve funding decisions by NSF management.  We
follow up on reports by tracking recommendations through quarterly
status reports on the agency's progress in implementing our
recommendations.

Sometimes a recommendation that funds be put to better use results
in a one-time-only cost savings.  Because most of these reviews
involve long-term programs or projects, implementation of our
recommendations for the better use of funds often results in cost
savings that accumulate over time. To provide a reasonable estimate
of the value of most of our recommendations, we are required to
estimate the length of time over which savings will accrue.  In
some circumstances, the assessment is relatively easy-for example,
in Semiannual Report Number 12 (page 3), we recommended renovation
of a barracks in New Zealand for use by the Antarctic program.  The
Navy had estimated the renovated barracks would have a useful life
of 15 years, so we estimated the savings for that period.

Sometimes, however, there is no readily identifiable duration over
which our recommended cost savings will accrue.  Under the
Government Performance and Results Act, federal agencies must
submit a strategic plan for all program activities covering a
period of at least 5 years.  Since NSF will be making its strategic
plans for 5-year periods, we believe it is appropriate to calculate
cost savings over 5 years.


Ocean Drilling Program Could
Allocate an Additional $4.46 Million
Over 5 Years for Scientific Research

The Ocean Drilling Program (ODP) is an international collaboration
that contributes to the fundamental knowledge of the earth's
history and geology by obtaining and analyzing cores of sediment
from ocean floors.  Sixty percent of ODP's operations are funded by
NSF, and the remaining 40 percent are funded by six international
organizations; however, NSF manages all of the funds.  The total FY
1996 budget for ODP's management and operations contract is
approximately $45 million, which is the same as the amount that was
budgeted in FY 1994, and $1 million less than FY 1995.  With these
budget constraints in mind, we reviewed the ODP in an effort to
identify areas in which prospective changes would result in cost
savings.  We made recommendations for agency action to realize
these savings so that the funds can be used to more directly
achieve ODP's scientific objectives.

In addition to obtaining data that add to the scientific
understanding of earth's history and geology, one of ODP's
objectives is to disseminate the information developed by the
Program's research. ODP publishes its own hardbound volumes, the
Proceedings of the Ocean Drilling Program (the Proceedings), which
present the data and scientific results for each of the six trips
made each year by ODP's drilling ship to obtain sediment cores from
different locations.  Each of these trips is called a cruise.

We believe the costs of publishing the Proceedings are excessively
high.  In FY 1996, ODP will spend $1.7 million preparing the
Proceedings.  One volume of the Proceedings is produced for each
cruise, for a total of six volumes per year.  Each volume consists
of two separate, hardbound issues: Scientific Results and Initial
Reports.  About 1,800 copies of each issue are printed, of which
approximately 1,540 copies are distributed free of charge, about 50
are sold, and about 210 are kept for future distribution.  It costs
approximately $790,000 per year to produce the six issues of
Scientific Results and about $904,000 to produce the six issues of
Initial Reports.

     Initial Reports. Initial Reports are published about 1 year
after each cruise ends and contain information on materials and raw
data that were obtained during the cruise. Initial Reports are
almost entirely collaboratively written by all of the scientists
who are present on each cruise. Initial Reports typically contain
about 400 pages of text and 400 pages of photographic and tabular
data.

Initial Reports serve an essential function by making the basic raw
data and information from each cruise available to geologists and
oceanographers worldwide.  They must be widely and readily
available to scientists seeking to obtain this information.  ODP
has begun producing Initial Reports on CD-ROM, and is considering
making them available on the Internet.  Since Initial Reports exist
only to provide reference data for use by technically
sophisticated scientists, we suggested that ODP shift its focus
from bound issues to CD-ROMs and Internet availability.  These
formats are much less expensive than the bound issues currently
being produced.  The low cost of manufacturing CD-ROMs and the
accessibility of Initial Reports over the Internet would greatly
improve the availability of ODP data worldwide.  Moreover, Initial
Reports can be significantly more useful in electronic format
because the text can be searchable, and the pictures, which are
currently printed in black and white, can be reproduced in color
without substantially increasing costs.

ODP could save about $220,000 annually if it stops publishing the
printed version of Initial Reports. The value of the savings over
the 5-year planning period beginning in FY 1997 totals $1.1
million.  However, NSF has approved ODP through FY 2003, and plans
are underway to extend the ODP for an additional 10-year period
beyond 2003.  If the printed version of Initial Reports were
eliminated in FY 1997, the annual cost savings would be maintained
for at least 17 years.

     Scientific Results. Scientific Results are published about 3
years after each cruise ends.  A typical Scientific Results issue
is about 800 pages long and contains about 50 research articles
written by scientists that participate in the cruise.  These
articles are of the type that ordinarily could be published in
either general or specialized scientific journals.  However,
scientists affiliated with the cruise are required to publish
articles in Scientific Results, even though many publish similar,
or occasionally the same, articles in the general literature or
would prefer to.  Indeed, there is a perception among many ODP
participants that increasingly the best manuscripts are submitted
elsewhere, to journals that are circulated more widely and are more
effective in enhancing a scientist's reputation and career.  We
recommended that ODP cease publishing these costly issues.  Using
essentially the same reasoning, last year, two ODP committees
recommended that the requirement of publishing in Scientific
Results be eliminated.  A majority of the members of a third
committee voted in favor of eliminating  Scientific Results
altogether, but the motion did not pass because it required a
two-thirds majority and at least three non-U.S. votes for passage.

We believe Scientific Results should be phased out over the
approximately 18 months required to publish the volumes now
in-process.  In our view, the loss of Scientific Results as an
ostensibly unified format for presenting each cruise's articles
would be offset by the higher visibility afforded by publication
of the results in scientific journals, which are distributed to a
greater number of libraries.  Since Scientific Results would be
phased out over 18 months, the full annual cost savings would not
be realized until FY 1998.  We estimate cost savings of about
$200,000 in FY 1997 and savings of about $790,000 each year
thereafter for at least 16 years.  Over the 5-year planning period
beginning in FY 1997, ODP could save $3.36 million.

If ODP stops printing bound issues of Initial Reports and stops
publishing Scientific Results altogether, it will save $4.46
million over the 5-year planning cycle.  If ODP adopts our
recommendations, it will have greater resources to devote to awards
for individual investigators as well as to technical innovations
that, according to ODP, are sorely needed but have been delayed
because of budgetary constraints.

Because ODP is a cooperative international project, NSF management
is forwarding our recommendations for consideration by the
appropriate international advisory committees.  Once the advisory
committees have addressed the issue of ODP publications, NSF
management will respond to our recommendations.


ANTARCTIC PROGRAM CAN
ALLOCATE ADDITIONAL
FUNDS FOR RESEARCH
__________________________________________________________________

NSF supports research in the Antarctic and has overall management
responsibility for U.S. operations in Antarctica.  In FY 1995, NSF
spent over $160 million on logistic support and $29 million on
scientific research.  A portion of the logistics budget directly
supports research, such as  providing travel and field support.
Nonetheless, it is clear that a relatively small cost savings in
logistics could allow a relatively large increase in the Antarctic
research budget.  We identified three elements of the logistics
budget that could be used to better support scientific research in
Antarctica.


__________________________________________________________________


Temporary Duty Pay to Contractors
in Antarctica Can Be Reduced

Logistic support for research in Antarctica is provided by a
civilian contractor.  In this reporting period, we reviewed the
temporary duty salary supplements the contractor provides for its
full-time employees who work year-round.  The contractor pays
salary supplements when it deploys its employees in Antarctica. The
supplement or "bonus" is not given to employees as a reward for
outstanding work; it is a hardship differential that is given to
those employees who work in Antarctica's inhospitable climate.

Over the 6-year contract period, the contractor increased the
amount of bonuses paid from 13 to 24 percent of its employees'
salaries and decreased the length of time employees had to be in
Antarctica to be eligible for a bonus from 30 days to 1 day.  These
changes contributed to a 45-percent increase in bonus payments
between 1993 and 1995.  In 1995, the contractor paid its full-time
employees $419,000 in bonuses.  We also found that the temporary
duty bonuses the contractor paid top and middle managers in 1995
totaled almost $50,000.

We believe the base salaries of contract employees stationed on
the ice take into consideration Antarctica's remote location and
the length of deployment.  The purpose of the temporary duty bonus
is to compensate employees who spend an unusually extended period
of time away from home, not just a few days.  In contrast, federal
employees and the contractor's seasonal employees do not earn a
bonus beginning on the first day of service on the ice.  Seasonal
employees work under contract during the austral summer.  These
employees must complete a 6-month contract before they receive any
bonus, and federal employees must complete 42 consecutive days of
service in Antarctica.  Federal employees begin to earn bonuses on
their 43rd day of deployment and do not receive bonus payments that
are retroactive from the first day of deployment.

We recommended that NSF's Office of Polar Programs (OPP) limit the
amount of NSF funds that can be used to pay for bonuses.  The
contractor remains free to fund additional bonus payments from
other funding sources.  Under our recommendations:

     Federal funds would support bonus payments only when the
     contractor's  full-time employees serve at least 30
     consecutive days in Antarctica.  By making this change, we
     estimate that NSF would save $50,000 annually.

     NSF funds would not be used to support bonus payments
     retroactive to the first day of service in Antarctica.  By not
     making the pay retroactive, OPP would save an additional
     $150,000 annually.

OPP is evaluating our recommendations.  We estimate that OPP will
save about $1 million over 5 years if our recommendations are
implemented.


Cost Savings Associated With
Antarctic Research Vessel

In Semiannual Report Number 13 (page 8), we reported on our review
of a subcontract with the owner of a research vessel used in the
Antarctic program.  We recommended $1.2 million in cost savings
relating to the daily rate NSF pays to charter the vessel.

During this reporting period, we reviewed the subcontractor's and
NSF's responses to our recommended cost savings.  The
subcontractor submitted a revised proposal concerning the daily
rate paid to charter the vessel for NSF's evaluation and approval.
In the revised proposal, the subcontractor adopted some of our
recommendations for cost savings.  The subcontractor's revised
proposed daily rate will save at least $512,000, based on the
vessel being at sea 365 days a year.  In addition, based on the
subcontractor's estimate of time the vessel will spend in dry
dock, we expect that NSF will save an additional $274,000, with the
possibility for greater savings if more time is spent on vessel
maintenance.  NSF could have realized additional cost savings if
the vessel was taken off hire during required Coast Guard
inspections and the subcontractor assumed liability for
catastrophic damage during the period of the lease.  NSF and the
subcontractor did not agree with these recommendations for
additional cost savings.

Recommendation for Better Use of
Vacant Buildings in New Zealand
Remains Under Review

In Semiannual Report Number 12 (page 2), we discussed our
recommendation that NSF refurbish one of several vacant barracks in
New Zealand to house contractor employees and military personnel
who provide logistical support for operations in Antarctica.  We
estimated that this would save at least $4 million.  As of the end
of this reporting period, NSF was still working on a cost-benefit
analysis because of changes in NSF's leasing arrangement with the
Christchurch Airport Authority, changes in the military's
involvement with the program, and the recent shutdown of NSF's
operations.

Although we understand the reasons for the delay, we encourage as
swift a completion of the cost-benefit analysis as possible in
order to determine the best course of action to achieve cost
savings for the program.


AUDIT FOLLOWUP OF INSPECTION FINDINGS
IDENTIFIES AREAS FOR COST SAVINGS

__________________________________________________________________

Our auditors regularly work with inspection teams by reviewing the
financial aspects of NSF awards.  Two inspections resulted in
substantial cost savings for NSF programs.

__________________________________________________________________


Accurate Allocation of Costs to
Biological Laboratory Saves NSF Funds

In Semiannual Report Number 11 (page 35), we reported on our
inspection at a nonprofit marine biological laboratory.  The
inspection observed that the laboratory neither recorded the time
employees worked nor correctly allocated indirect costs.  Costs for
the program were being charged to only 23 of the 38 programs that
fund the laboratory.  As a result, NSF was charged for costs that
should have been allocated to other projects at the laboratory.
Because these findings were material, we conducted a follow-up
audit to evaluate the laboratory's implementation of the
recommendations made in our inspection report.  Because the
laboratory implemented our recommendations, NSF saved over $170,000
in 1995.  We expect NSF to continue to save approximately the same
amount in future years for a total savings of $850,000 over the
5-year planning cycle.

We recommended that the laboratory begin recording the time
employees worked on NSF awards and charge the employees' salaries
to NSF based on the recorded time. The laboratory implemented our
recommendation.  Based on the employees' recorded time, the
laboratory charged NSF $121,868 less in administrative salaries and
related indirect costs in 1995 than it charged in 1993. If the
laboratory continues to record and use actual time to charge salary
costs to NSF awards, we expect the laboratory's future proposals
will save NSF about $120,000 each year on administrative salary
costs or $600,000 over the 5-year planning cycle.

We also recommended that the laboratory review the allocation of
"joint costs," that is, those costs that are allocable to all of
the projects at the laboratory's research center. We examined the
research center's joint cost rate and the application of that rate
to federal awards.  The research center had revised the procedures
to allocate the joint costs on federal awards to all projects.
These revised procedures ensured that all projects as well as the
laboratory's indirect cost account would be allocated their share
of the joint costs.  Because the joint costs were allocated to more
projects, there was a reduction in the joint cost rate from 15 to
5 percent.  Based on the laboratory's revisions to the joint cost
rate, we estimate that the research center charged NSF $47,781 less
for joint costs in 1995. We expect that the research center will
include less joint costs on future award proposals.  NSF should
save approximately $50,000 each year on joint costs or $250,000
over the 5-year planning cycle.


Inspection Identifies Costs
Savings in NSF Funding of
Economic Research Institution

An OIG inspection of an economic research institution made several
recommendations that would reduce the institution's indirect cost
rate. We recommended that NSF no longer pay for certain costs
associated with working papers and honoraria for visiting
scientists.  We estimate that NSF could save approximately
$800,000 over a 5-year period by implementing our recommendations.
Based on an analysis of information collected during the
inspection, we prepared a memorandum to NSF management quantifying
the effect of our recommendations and responding to the
institution's justifications for including certain costs in its
indirect cost pool.  NSF officials are reviewing our memorandum.


FOLLOWUP ON SIGNIFICANT
RECOMMENDATIONS FOR COST SAVINGS


NSF Will Continue to Pay
Fees to an Organization
Specializing in Atmospheric Research

We are responsible for auditing all federal funds at a nonprofit
organization dedicated to atmospheric research.  NSF and other
federal agencies provide $100 million per year to this organization
in the form of direct costs, indirect costs, and management fees.
In Semiannual Report Number 13 (page 5), we reviewed management
fees paid to the nonprofit organization and recommended that NSF
no longer pay a fee.  The nonprofit organization already receives
federal funds to cover the indirect costs of research and uses the
fees to cover costs that are unallowable under federal cost
principles.  We suggested that the nonprofit organization pay for
"unallowable" costs by using funds it receives from nonfederal
sources.

In the last semiannual period, we estimated that NSF and other
federal agencies could save in excess of  $4.5 million over a
5-year period by not paying the fees.   During this reporting
period, the nonprofit organization requested an additional $1.3
million in fees from another federal agency.  The nonprofit
organization included the request for fees in a cost proposal for
a new contract with that agency.  The contracting officer for the
other federal agency requested that we do a preaward review.
Based on our preaward review, we suggested that the federal agency
not provide the fee under the new contract.  We are advised that
the federal agency intends to discuss this issue during contract
negotiations with the nonprofit organization.

NSF's Deputy Director and the Assistant Director for Geosciences
reviewed our recommendations that NSF no longer pay a fee.  NSF
management did not agree with our recommendation. The Deputy
Director concurred with the Assistant Director's decision "that it
is appropriate for NSF to continue to pay a modest fee" of $75,000
per year to the nonprofit organization.  Further, the Deputy
Director decided not to adopt an approach that would address fees
paid by other federal agencies.  The Deputy Director explained that
it "does not seem to me appropriate to use NSF's fee relationship
with (the nonprofit organization) as a vehicle to proscribe fees
paid . . . by other federal agencies."

Rather than paying a fee based on a percentage of the award, NSF
caps the annual fee to the organization at $75,000 per year, which
amounts to less than 0.2 percent of the award.  The nonprofit
organization has requested that other federal agencies pay a fee
based on a percentage of the award-in some cases, as high as 3
percent.  Under this approach, fees paid by other federal agencies
over a 5-year period will total approximately $6 million.

We advised the Inspectors General at the other federal agencies of
NSF's decision to continue to pay a fixed fee of $75,000 per year.
We suggested that the Inspectors General recommend that their
federal agencies limit the percentage of funding that is paid as a
fee to the percentage that NSF pays.  By capping the fee in
proportion to the amount paid by NSF, other federal agencies would
save $5.8 million over 5 years.

We also recommended that NSF notify Congress of all fees the
government intends to pay the nonprofit organization and receive
congressional approval.  The Assistant Director for Geosciences
rejected our recommendation, stating that he found "no rules,
regulations, policies or compelling reasons to specifically request
and receive Congressional approval for the payment of fees."


NSF Saves Funds in Management
of Supercomputer Center
But Does Not Disallow Costs

As described in Semiannual Report Number 12 (page 10), we audited
a company that operates one of NSF's four supercomputer centers. We
questioned nearly $3 million because we found that the company
charged unallowable and unsupported costs.  We also made
recommendations to save costs in the future.

The company returned $59,239 for excessive consultant fees.  In a
draft resolution memorandum sent to the company, CPO did not
request that the company return $2,931,784 of the remaining
questioned costs.  CPO determined that $1.7 million of these costs
were incurred prior to NSF's formal notification to the company
that NSF will no longer fund independent research and development
costs.  Nonetheless, CPO formally advised the company that it would
not provide future funds for additional independent research and
development costs (estimated at $500,000 annually).

We also questioned $1 million because the company commingled NSF's
costs with costs paid by the State of California and industrial
participants.  CPO requested that the company make improvements to
its accounting system so that the company will charge NSF only for
costs related to the NSF project, but elected not to disallow past
costs that were commingled in other accounts.

CPO accepted three other recommendations that should save costs. It
agreed to require that the company refinance outstanding loans if
a more favorable rate can be obtained, examine large equipment
purchases on a case-by-case basis to determine whether it is
beneficial for NSF to own the equipment and thereby save the cost
of state sales tax, and begin negotiations with the company that
operates the supercomputer center to determine the equitable
allocation of building costs among all funding sources.

The company did not agree with all of CPO's proposed actions.  CPO
expects to make a final decision during the next reporting period.

__________________________________________________________________

Questioned Cost

A cost resulting from an alleged violation of law, regulation, or
the terms and conditions of the grant, cooperative agreement, or
other document governing the expenditure of funds.   A cost can
also be "questioned" because it is not supported by adequate
documentation or because funds have been used for a purpose that
appears to be unnecessary or unreasonable.
__________________________________________________________________


OTHER AUDITS OF ORGANIZATIONS
THAT RECEIVE NSF FUNDING

__________________________________________________________________

We select organizations and awards for review based on a
preliminary assessment of whether it appears these organizations
would have difficulty complying with regulations that govern
the use of federal funds.  By using risk assessment principles, we
try to identify those organizations or programs that have the
greatest risk for financial irregularities and provide
opportunities for the greatest dollar recoveries.  This section
describes audits of NSF awardees conducted in this reporting period
that involve significant questioned costs.
___________________________________________________________________


State Systemic Initiative Program
Needs to Improve Oversight of
Subawards and Cost Sharing

The Statewide Systemic Initiatives (SSI) program seeks to improve
science education at the state level by providing grants directly
to a state government agency or to a state-approved entity.  Most
SSI awards are for 5 years.  In FY 1995, the SSI program allocated
$45 million among 24 states and Puerto Rico.  The SSI program's
goals are to increase students' knowledge of science and
mathematics and assist students in sharpening their critical
thinking skills.  The 20 participating states are expected to
manage the awards, share in the program costs, and allocate
personnel to support the program.  In Semiannual Report Number 13
(page 13), we reported that our risk assessment process had
identified the SSI program as one that warranted further review.

We completed one audit of an SSI award during a prior reporting
period.  During this reporting period, we completed seven more
audits of SSI awards.  In these eight audits, we questioned
$1,341,000 of the $30,027,024 claimed.  Because most questioned
costs involve subawards, we believe awardees need to significantly
improve their monitoring of subawards.  We also found that three
awardees needed to increase their cash contributions to the
projects because they had not provided 30 percent of their promised
cost sharing.

     Subawardee Monitoring.  Inadequate monitoring of subawards is
particularly problematic because most primary SSI award recipients
disburse large portions of their awards to other organizations.  In
fact, some states implement their SSI award by issuing subawards to
as many as 200 different entities. Three awardees reviewed thus far
failed to provide adequate oversight of subawardees, did not
require that subawardees submit subcontracts to the awardee for
review and approval, and/or maintained incomplete files on
agreements with subawardees.  One awardee did not receive
expenditure reports from most of its subawardees.

Of the $1,341,000 we questioned, subawardees claimed $1,242,919.
Although subawardees accounted for only about 69 percent of the
claimed costs, they were responsible for about 93 percent of
questioned costs.  We believe this high percentage stems from a
combination of the awardees' failure to provide oversight of the
subawardees and the subawardees' lack of financial accounting
expertise.

We questioned over $760,000 because subawardees from four states
based their claims for NSF funds on budget estimates rather than
actual expenditures and because advances paid to two subawardees
exceeded their costs.  One other awardee provided cash advances to
subawardees that exceeded their immediate needs, and another
advanced funds based on the budget rather than expenditures.
Inadequate timecard systems and missing payroll records resulted in
about $270,000 in questioned costs for subawardees in four states.
We also questioned about $100,000 because of other kinds of
inadequate documentation.

Some subawardees did not appear to know which costs could properly
be billed to the award.  We questioned about $21,000 claimed by
subawardees in two states because NSF had not approved the items
claimed.  Similarly, we questioned about $29,000 because the costs
were not allocable to the award or did not benefit the program
being charged for the expenditures.

Some subawardees were unfamiliar with NSF's requirements regarding
payments to consultants.  Three subawardees exceeded NSF's
restriction on payments to consultants. As a result, we questioned
about $9,000 in costs.  In addition, we questioned about $10,000 in
consultant charges claimed by four subawardees that were not
supported by agreements or invoices.

We recommended that NSF program staff emphasize the need for a
coordinated approach by the awardees and subawardees.  We
recommended that awardees annually report to NSF on their
monitoring of  subawardees, including information about site visits
to subawardee facilities.  The annual report should also include
details on subawardee reporting of actual expenditures.

     Cost Sharing.  Cost sharing was a significant problem for most
awardees. States are expected to share in the costs of the SSI
program.  In fact, the program's solicitation states:

          An important consideration in the awarding and
          continuation of funding will be the degree to
          which proposals incorporate the use of state,
          local, and private resources. . . . No proposal
          will be considered that does not explicitly address
          the integration of activities to be carried out with
          state and local funds, private sector funds, and funds
          received from the Department of Education . . . and
          other federal funds.  Federal funds from all sources
          can be only a relatively small part of the total effort
          which this program will initiate.  Substantial fiscal
          commitments from state and local sources must be the
          major and continuing means to assure long term
          improvement.

Despite this clear direction, our audits showed that several
awardees fell short of their cost-sharing goals by about $800,000.
Almost all of the cost-sharing shortfall involved three awardees.
These three awardees had promised $2.6 million in cost sharing, but
they provided only $1.8 million--a 30-percent shortfall.   Three
other awardees and several subawardees failed to maintain adequate
cost-sharing records; however, most of these awardees and
subawardees were able to gather documentation to support
fulfillment of their cost-sharing obligation.  We recommended that
NSF management establish a system to monitor awardee cost sharing
and ensure that awardees are providing the amount they promised in
their proposals.

NSF's Assistant Director for Education and Human Resources agreed
to implement our recommendations.


Ongoing Review of Participant
Support Results in Significant
Questioned Costs and Findings

Many NSF grants support science and education conferences,
meetings, symposia, training activities, and workshops.  NSF uses
the term "participant support costs" to describe "costs of
transportation, per diem, stipends, and other related costs for
participants or trainees (but not employees) in connection with
these conferences and meetings." In this reporting period, we
completed 17 on-site audits of participant support costs under NSF
awards.  We audited a cross section of NSF award recipients,
including universities and colleges, museums, secondary public
school districts, foundations, and other non-profit institutions.
These audits questioned $1,304,447.

In Semiannual Report Number 13 (page 11), we reported $600,000 in
questioned participant support costs claimed by 50 awardees
because funds were spent for items other than participant support
without prior NSF approval.  This issue arose again in audits
conducted in this semiannual period, which resulted in our
questioning an additional $183,682.

As a result of our recommendations, CPO and DGA advised NSF
program managers of the need for prior, specific written approvals
for changes in participant support spending levels; required that
program officials coordinate any requests for after-the-fact
approvals with DGA; and began emphasizing in various outreach and
training activities that participant support costs may only be used
for other purposes with prior NSF approval.

Audits conducted in this period identified other significant
questioned costs involving participant support.  We questioned
$272,237 in costs claimed by 12 awardees for expenditures that
were unallowable, ineligible, or not contemplated by the awards.
Unallowable and ineligible questioned costs included claims for
stipends or per diem paid for employees and local participants,
costs not related to NSF awards, duplicate reimbursements,
alcoholic beverages, trips to an amusement park, and tee-shirts.
Other costs we questioned included:

     $113,605 in indirect costs that exceeded award limits;

     $212,735 in costs that were misclassified between participant
     support expenditures and other kinds of expenditures;

     $409,338 of costs that were not recorded in accounting records
     or were not supported by sufficient documentation; and

     $325,585 because three NSF awardees did not document cost
     sharing that they promised in return for receiving participant
     support from NSF awards.

In several isolated incidents, we could not reconcile information
provided by NSF awardees about funds the awardees told us they paid
to participants with information supplied by the participants
themselves.  We referred these matters to our Investigations
section for further review.

Our audit reports with questioned costs for participant support
were forwarded to CPO for audit resolution.  We consider our
findings in the area of participant support to be significant and
plan to continue conducting reviews in this area.


A Program Evaluations Contractor
Charges Ineligible and Unsupported
Costs to NSF Awards

At the request of NSF's CPO, we conducted an audit of two contracts
worth over $6 million.  The two contracts were awarded to provide
technical support to two NSF Offices in collecting, verifying,
analyzing, and distributing quantitative and qualitative
information on NSF science, mathematics, and engineering education
programs.  We questioned approximately $200,000 because the amount
the contractor charged NSF for profit (defined in the contract as
a "fixed fee") exceeded the limit specified in the contract.

We also questioned approximately $700,000 because the contractor
did not provide satisfactory records to establish that contract
funds were actually expended for the costs claimed.  This included
labor costs that were charged to NSF in amounts greater than the
amounts actually paid by the contractor.  In one instance, the
hourly rate claimed for an employee exceeded the hourly rate
actually paid by $42.  Our review of hourly charges was limited
because the contractor was unable to provide detailed labor records
promptly. Our review of hourly charges for employees will continue
in the next reporting period. The contractor did not agree with our
questioned costs, and we forwarded our report to CPO for
resolution.


Native American Community College
Has Substantial Questioned Costs

NSF awarded a 4-year, $314,521 grant to a community college located
on a reservation for Native Americans.  The award provided funds
for the community college to improve the quality of education for
Native Americans by conducting a reservation-wide conference and
teacher workshops as well as piloting an associate degree program
for science and mathematics.  Our risk assessment process
identified significant problems with the community college's
financial management of the grant.  We classified the community
college as a high-risk organization and scheduled these awards for
audit.

We questioned $258,955 because the community college paid an
employee $46,048 for time he did not work on the award;
charged $50,563 for travel costs in excessive amounts and could
not provide expense reports or receipts; charged $43,320 of
participant support funds and other costs without NSF's approval;
charged $33,190 for unallowable food, entertainment, personal
items, and indirect costs; and did not contribute $84,921 for the
community college's share of cost sharing proposed under the award.
The community college did not agree with our questioned costs.  CPO
is reviewing our audit report to determine the amount of questioned
costs that will be disallowed.


Nonprofit Organization
Returns Excess Funds

NSF awarded a nonprofit organization a $363,565 grant to improve
children's education in language and mathematics by training
teachers, furnishing parents with home tutorial materials, and
providing tutors for students who do not perform well in language
and mathematics.  The nonprofit organization received $66,928 more
in award funds than it needed.  After the completion of the grant,
the organization had not returned the funds.  We also found a
material weakness in the organization's accounting for $232,209 in
employees' salaries and fringe benefits.  Based on our
recommendations, the organization returned the $66,928 of unused
funds and agreed to strengthen controls over salaries.


Engineers' Society Needs
to Identify Cost Sharing

We audited a nonprofit society for engineers that received $842,103
from two NSF grants to develop engineering curriculums for middle
school students.  On one grant, the society promised to cost share
$585,000 in the grant's first year, but only contributed $136,198.
The society stated that the cost-sharing deficit would be made up
during the next 2 years of the grant.  We recommended that NSF
monitor the society's cost sharing.  We also questioned $28,792
because the society spent participant support funds on other costs
without NSF's approval and charged for consultant services in
excess of the maximum daily rate.  CPO will resolve issues raised
in our report during the audit resolution process.


OTHER ACTIONS TAKEN TO
PROTECT FEDERAL FUNDS

__________________________________________________________________

We often review NSF awards before large amounts are expended to
ensure that federal funds are properly protected.  In this
reporting period, we recommended that CPO/DGA take action to
protect NSF funds at three funded organizations.  One of these
audits was conducted by our staff, and the other two were conducted
by our colleagues at the Department of Health and Human Services'
(HHS) OIG and the Defense Contract Audit Agency (DCAA).
__________________________________________________________________


Urban Public School System Needs
to Improve Internal Controls

NSF management requested that we evaluate a public school system's
ability to effectively administer a $13.5 million award.  The
school system is a fiscally dependent agency of a financially
troubled local government.  NSF awarded the school system $13.5
million to stimulate systemic reform in its science, mathematics,
and technology programs.  Because the school system had spent only
$158,574 of the award at the time of our audit, we reviewed three
additional NSF awards for a total of $500,000.  The purpose of our
audit was to assist the school system so it could better manage
award funds.

The school system did not comply with certain federal requirements
for financial management, which could have significant consequences
for the awards' objectives.  The school system did not adequately
record time employees worked on the award, obtain NSF approval to
spend participant support funds in other areas, or monitor cost
sharing.  Because the school system did not record the time
employees worked on NSF awards, one employee was paid for time he
did not work on the award.  We also identified costs budgeted for
participant support that the school system expended in other
categories without the NSF program officer's approval.  Because the
school system did not keep records on cost sharing, there was no
systematic way for them to monitor, and for us to easily verify,
that promised cost sharing had in fact been provided.  We believe
our findings are important because, over the 5-year life of the
award, the school system has committed to cost share $21.4 million
as well as expend $1 million in salaries and $1.4 million for
participant support costs.  We recommended that the school system
account for cost sharing in a well-documented system, keep activity
records for employees, and use funds allocated for participant
support solely for participants.  The school system generally
agreed with our recommendations.


Controls Needed on NSF Awards
to a College

HHS' OIG advised us that a college had a deficit of over $48
million in its unrestricted fund balance.  Although this deficit is
not as great as it was in the prior year, the college's Health
Services Division, which was the principal cause of the college's
financial problems, incurred a loss of almost $2 million for the
year reviewed.  Expenditures under NSF awards totaled almost $1.3
million during this same period.  HHS' OIG reported that the
college has managed to stay in operation by using transfers from
other funds and bank loans. The college is also a defendant in
several lawsuits that seek damages that exceed its insurance
coverage.  Based on this information, we questioned the college's
ability to continue as a viable entity.

NSF has $6.5 million in active awards with the college.  Although
we would not want to take action that would increase the college's
financial predicament, we need to ensure that NSF funds are used
solely for their intended purpose.  We recommended that CPO take
immediate action to ensure that NSF's funds are protected.  In
response to our recommendation, NSF has reviewed the college's
portfolio of awards and has received additional financial
information from the college.  NSF will continue to monitor the
college's financial status.


NSF Award Suspended Because of
Unreliable Accounting System

DCAA identified a contractor that had awards from the Department of
Defense (DoD) and NSF as having major deficiencies in its system
for accumulating and reporting contract and grant costs.  DCAA also
determined that there were numerous discrepancies between the
records on costs incurred and those claimed.  DCAA recommended that
the company's accounting system be disapproved.

Based on the information developed by DCAA, both DoD and NSF
stopped payment on awards to protect federal funds.  The stop
payment affected about $600,000 of $1,246,700 in DoD funding and
$88,800 of $214,645 in NSF funding.  The suspension will remain in
effect until the accounting issues are resolved.


AUDITS INVOLVING NSF'S INTERNAL
FINANCIAL MANAGEMENT

__________________________________________________________________

The Government Management Reform Act of 1994 amended the Chief
Financial Officers Act (CFO) and increased the scope of our annual
audit of NSF's financial operations.  Our responsibilities
increased from auditing financial statements for NSF's $40 million
Donations (Trust Fund) Account to auditing NSF's entire $3.2
billion budget beginning in FY 1996.

The CFO is presently making decisions on the report format and
content of the FY 1996 financial statements. He is also considering
changing the agency's  accounting procedures to produce more
accurate data for financial statement compilation.  In July 1995,
the CFO contracted with a private accounting firm at a cost of
approximately $600,000 to provide assistance in preparing FY 1995
prototype financial statements and provide advice concerning the
compilation of the FY 1996 financial statements.  During this
reporting period, the accounting firm issued a report to the CFO
that suggested reporting formats and identified several areas where
internal controls and accounting procedures should be improved,
such as property, plant and equipment, accounts payable, financial
reporting, and performance measures.  According to the accounting
firm's report, NSF may encounter significant difficulties when it
attempts to place a value on property that is classified as an
asset in NSF's financial statements.

___________________________________________________________________


CHIEF FINANCIAL OFFICER AUDIT ACTIVITIES

Results of FY 1995 CFO Audit

In this reporting period, we audited NSF's FY 1995 Donations
Account Financial Statements and issued Auditor's Reports on
Principal Statements, Internal Control, and Compliance.  We
provided an unqualified opinion on the Principal Statements and
Compliance.  We issued a qualified opinion on Internal Control
because NSF did not have adequate controls for collecting and
reporting performance data.  To compensate for this lack of
controls, we expanded our audit's scope to conduct a more detailed
review of the supporting documentation and to verify all of the
performance data in the financial statements.  We were able to
conduct a detailed review of the supporting documentation because
this audit only involved the Donations Account, which has a total
value of approximately $40 million.

Preparation for Agency-Wide Audit

We've been working with NSF's contract office, CPO, to complete the
solicitation process to procure a public accounting firm to assist
in the FY 1996 agency-wide financial statement audit. OIG does not
have its own contracting official, so we rely on CPO to award our
contracts and manage contract solicitations.

As noted earlier in this report, the request for proposals for this
contract was delayed significantly because of the shutdown of
agency operations in November and December 1995 and January 1996.
CPO issued the request for proposals on March 25, 1996, and hopes
to award the contract by October 1, 1996.

We are preparing for our audit of NSF's first agency-wide financial
statements by conducting reviews in several key operational areas,
including electronic data processing (EDP), budget, general ledger
maintenance, and grantee cash management.  Data will be generated
from systems in these operational areas to compile NSF's first
agency-wide financial statements.  The results of these reviews are
described below.

     Review of NSF's Federal Cash Transactions Report System.  Each
year, NSF issues grants to over 2,000 institutions.  Approximately
15 percent of NSF's grantees account for about 85 percent of NSF's
$3.2-billion cash authorization.  NSF disburses funds to grantees
primarily by the advance and reimbursement methods.  NSF uses a
Federal Cash Transactions Report (FCTR) to monitor cash advanced to
recipient grant institutions, obtain disbursement information from
the recipients, and record the disbursements in NSF's Financial
Accounting System (FAS).  Our audit observed that advances were
overstated and expenses were understated because reimbursements to
grantees are recorded in the FAS as advances.  This could result in
a material misstatement in the financial statements.

We also identified redundant and inefficient internal processing
procedures and made recommendations to reduce the time and cost of
processing grantee cash requests and FCTRs.  In addition, we made
several recommendations to improve internal controls and ensure
that all institutions required to do so submit an FCTR, the
proper payment method is used to pay grantee institutions,
maximum individual grant limits are not exceeded, expired grant
accounts are properly closed and deobligated, and interest earned
is properly remitted.

     Review of Electronic Data Processing Controls in the Financial
Accounting System.  We conducted the second and third phases of our
review of EDP controls in NSF's FAS.  The objectives of the second
phase of the review were to identify the procedures and controls in
various subsystems that provide information to, and receive
information from, NSF's FAS and determine whether those controls
were adequate to produce reasonably accurate and complete financial
data.  The subsystems we reviewed are used to process procurements,
training requests, proposals, payroll, vendor express payments,
intergovernmental payments, cash advances requested through the
Internet, and vendor billing correspondence. Overall, we found the
systems were operating as designed, and the controls were adequate
to produce reasonably accurate and complete financial data in the
FAS.

The purpose of the third phase of our EDP review was to determine
the adequacy of the general and application controls in the FAS.
We also reviewed the security of the mainframe operating system,
the use of encryption and passwords to protect data, and NSF's
compliance with government-wide computer security directives.  The
audit identified deficiencies in password management, separation
of duties, Internet security, the FastLane security plan, internal
controls over duplicate payments, electronic mail address
management, and grantee bank account verifications.

     Review of the General Ledger.  We conducted a review of the
daily maintenance of the general ledger structure and account
balances.  We found that, in some areas, NSF's general ledger
structure differed from the U.S. Standard General Ledger.  This
occurred primarily because the proponent for the U.S. Standard
General Ledger guidelines, the U.S. Department of the Treasury, has
not provided government agencies with complete predefined
accounting entries that support the latest revised general ledger
accounts.  NSF management reviewed its general ledger accounts and
agreed to make the changes that were feasible, based on the
available guidance from the Department of the Treasury.


     Review of NSF Budget Execution System.  We examined the
procedures and internal controls used to execute and monitor NSF's
budget.  Our overall objective was to determine whether NSF was in
compliance with OMB budget execution guidelines.  We specifically
ascertained whether controls were in place to prevent and detect
overobligation of appropriations, reprogramming of funds was in
compliance with congressional guidelines and NSF policy, budget
execution reports to OMB properly reflected the obligations
incurred, and the budget execution process was adequately
monitored.  NSF's policies and practices for reprogramming funds
and monitoring the budget execution were acceptable.  NSF's
internal controls provided reasonable assurance that funds were
safeguarded from overobligation, but they allowed staff travel to
be inadvertently charged to program accounts.

In addition, NSF's reconciliation of the budget to actual
obligations at the end of the fiscal year needs to be better
documented.  There were inadequately documented adjustments made to
the obligation amounts recorded in the FAS to arrive at obligations
to be reported in the annual Justification of Estimates of
Appropriations to the Congress Report (Justification Report).  This
Report compares funds obligated to funds requested.  The reporting
structure of obligations in the FAS is more detailed than in the
Justification Report.  Although the inadequately documented
adjustments had no effect on the total reported obligations in
either source, we believe that all adjustments should be fully
documented to explain the differences between obligations recorded
in the FAS and the Justification Report.


OTHER REVIEWS INVOLVING
INTERNAL NSF FINANCIAL MANAGEMENT

__________________________________________________________________

In addition to reviewing issues relevant to the preparation of
NSF's financial statements, we review other issues involving NSF's
internal management.
___________________________________________________________________


NSF Needs to Institute Better
Controls Over Long-Distance
Telephone Calls

NSF employees used AT&T's federal calling cards and telephones
located at NSF to make over $367,000 in long-distance telephone
calls in FY 1995. NSF routinely pays for these calls without
verifying that employees made the calls for business purposes. We
recommended that NSF's Division of Information Services (DIS)
develop a plan to verify the appropriateness of long-distance
calls, with particular attention to calls made with calling cards.

     Calls Made From NSF Offices.  DIS cannot supply offices with
telephone listings that identify the employees who make
long-distance calls on telephones located at NSF.  For calls made
at NSF offices, DIS is currently trying to match the employee's
extension numbers with long-distance telephone listings.  Once DIS
is able to sort telephone logs by employee, DIS will provide
offices with listings of long-distance calls.

     Calling Cards.  NSF's DIS has listings that show long-distance
calls charged to employees' AT&T calling cards. Because employees
have their own AT&T calling cards and personal identification
numbers, verification of long distance calls should be relatively
easy.  However, DIS does not make the AT&T calling card billing
information  available to offices for verification.

Because NSF does not verify that long-distance telephone calls are
for business purposes, NSF may be paying for nonbusiness telephone
calls.  The risk is greater for telephone calls placed on AT&T's
calling cards because the employee's personal identification number
is on the front of the card.  If cards are misplaced or stolen,
they could be used by anyone for long-distance telephone calls.
DIS agreed to begin circulating telephone logs for AT&T calling
cards to NSF offices for verification.


NSF Modifies Rates Paid
for Panelists

NSF uses scientists from outside the agency to serve on panels that
review science and engineering grant proposals.  Previously, NSF
paid all panelists $260 per day to compensate them for the costs of
lodging and meals.  We recommended that NSF management review the
policy to determine whether all panelists residing in the local
metropolitan area should be receiving this daily compensation.  The
Director of NSF's Division of Financial Management raised the
issue with senior management at NSF, which decided that panelists:

     residing in the local metropolitan area in which the meeting
     is conducted should receive compensation of $130 for each day
     of the meeting,

     who travel from outside the area in which the meeting is held
     may receive $260 for each day of the meeting and $130 for any
     travel day immediately preceding and following the meeting,
     and

     will not receive any compensation for preparation day(s) for
     panel meetings.



INVESTIGATIONS

The investigations section is responsible for investigating
violations of criminal statutes or regulations involving NSF
employees, grantees, contractors, and other individuals conducting
business with NSF.  The results of these investigations are
referred to federal, state, or local authorities for criminal or
civil prosecution or to NSF's Office of the Director to initiate
administrative sanctions or penalties.


EMBEZZLEMENT OR DIVERSION OF NSF
GRANT FUNDS

__________________________________________________________________

We place a high priority on allegations involving embezzlement,
diversion of grant or contract funds for personal use, or other
illegal use of NSF funds.  Deliberate diversion of NSF funds from
their intended purpose is a criminal act that can be prosecuted
under several statutes.  We encourage universities and other
grantees to notify NSF of any significant problems relating to the
misuse of NSF funds.  Early notification of significant problems
increases our ability to investigate allegations and take
corrective action to protect NSF and its grantees.
__________________________________________________________________

__________________________________________________________________

TABLE 1:
INVESTIGATIVE ACTIVITY

Active Cases From
Prior Reporting Periods                      28

New Allegations                              33

Total Cases                                  61

Cases Closed After
Preliminary Assessment                        6

Cases Closed After
Inquiry/Investigation                        17

Total Cases Closed                           23

Active Cases                                 38
__________________________________________________________________


Over $6 Million Recovered From
Investigations of Small Business
Innovation Research Awards


NSF's Small Business Innovation Research (SBIR) program is designed
to stimulate technological innovation in the private sector,
strengthen the role of small businesses in meeting federal research
and development needs, and increase the commercial application of
the results of federally supported research.  NSF provides funds to
SBIR companies in two phases.  Phase I awards are for up to $75,000
and are provided to test the viability of research ideas.
Companies that are successful in the first phase may compete for
Phase II awards.  In Phase II, companies may receive up to $300,000
to develop their idea for commercial application.  NSF is required
by statute to allocate 2 percent and 2.5 percent of its research
funds to the SBIR program in FY 1996 and 1997, respectively.  Based
on this formula, NSF expects to spend about $40 million on SBIR
awards in FY 1996 and approximately $50 million in FY 1997.  Eleven
other federal agencies also provide funds to SBIR companies.

In this reporting period, the Department of Justice resolved two
major cases this office investigated involving companies that
applied for and obtained numerous SBIR awards from multiple
agencies for the same project.  While the government recovered the
money these companies fraudulently obtained--along with substantial
fines and penalties--the injury to the government in these cases
transcended monetary loss.

In several of our cases, companies have argued that even though
they fraudulently received funding from several agencies for the
same project, the government did not lose anything because the
funds were used for research. We have often found this was
untrue--research money was used for other purposes.  However, even
if the claim were true, the loss to the legitimate science
community would still be substantial.

Each SBIR program receives more qualified proposals than it can
fund, and it relies on peer review within the scientific community
to rank each proposal's intrinsic scientific merit and likelihood
for commercial success.  The peer review system assumes that the
proposer is submitting truthful information.  As a result of the
fraudulent proposals submitted in these cases, these companies
received funding that would have otherwise gone to honest
applicants.  As a result, worthy applicants lost support for their
proposed research, and the country lost the scientific advancements
these applicants would have developed.

Our investigations have enabled the Department of Justice to
recover over $6 million in restitution, fines, and penalties.  In
addition, one company pled guilty to a felony, and three companies
and five individuals were debarred from receiving federal awards
for 3 years.


Felony Conviction and Civil and
Administrative Settlements of SBIR
Case Result in $4.37 Million Recovery

In May 1994, a Program Manager from NSF's Small Business Technology
Transfer Program found that a company specializing in
super-conductor research submitted a proposal that contained a
document supplied by a university.  When the Program Manager
contacted the university for additional information, the university
was unable to authenticate the document.  The company then withdrew
the proposal, and the Program Manager referred this matter to us
for investigation.  We did not confine our investigation to the
proposal the company withdrew but reviewed all federal awards to
the company.  We led a joint investigation involving special agents
from NSF, DoD, and the National Aeronautics and Space
Administration.  We coordinated the investigative efforts with
Assistant U.S. Attorneys from the Eastern District of Virginia who
prosecuted this case.  The investigation disclosed that the same
individual owned and operated another company.  We concluded that
the two companies fraudulently received $1.7 million in SBIR grants
and contracts from federal agencies.  NSF awarded $600,000 to the
two companies based on fraudulent proposals.

     Primary Employment of the Principal Investigator.  During the
1980s, the first company received several SBIR awards.  However,
the principal investigator (PI) for those awards, who was also the
owner's wife, was employed full-time at a national laboratory
funded by the Department of Energy.  The SBIR program requires that
the PI be primarily employed by the company when the award is
granted and when the research is conducted.  The owner and the PI
had falsely certified in SBIR proposals that the PI was primarily
employed by the company and concealed the fact that the PI worked
full-time at the national laboratory.  In part, because of these
false certifications about the PI's primary employment, the laser
company received $288,000 in SBIR awards.  The owner of the company
admitted in affidavits that he understood that the PI had to be
primarily employed by his company during the award, but "listed
[his wife] as PI because she had very good credentials, was a woman
and majority shareholder, and had good publications."

     Duplicate Proposals and Awards.  The SBIR program requires
that companies disclose whether they have submitted similar
proposals to, or have received awards from, other federal entities
so agencies can ensure that SBIR programs do not fund SBIR research
that is being funded or has been funded by another agency.  Our
investigation found that the companies received duplicative SBIR
awards by submitting substantially similar, sometimes identical,
proposals to several federal agencies.  The companies received
duplicate SBIR awards by falsely certifying that no equivalent or
similar proposals had been submitted or awards received for the
proposed research.  We found that the companies received $647,496
by submitting false statements that concealed the fact that the
companies had already received SBIR awards for the proposed
research.

In fact, between 1989 and 1991, the first company received five
Phase I awards from different agencies for the same proposed
superconductor research.  All five proposals used the same
materials to develop the superconductor.  According to NSF and DoD
scientists, the only difference in these proposals was that each
proposal listed slightly different wavelengths to be used to test
the superconductor.  However, the first company submitted the
identical Phase I final report to the five different federal
agencies.  The five reports showed that only one wavelength was
used to test the superconductor.  Based on the research reported in
these identical Phase I reports and similar Phase II proposals, the
company then received two Phase II awards to conduct the same
research.

In a separate proposed project that was submitted in 1990, the
first company received a Phase I award to develop another kind of
superconductor. In 1991, the second company, which was owned by the
same individual, received a Phase I award from a different federal
agency to develop the same superconductor; the proposal the second
company submitted was a photocopy of the proposal submitted by the
first company only 1 year earlier.  In addition, the companies
submitted the same final report for each Phase I award.

The owner of the companies admitted in affidavits that he
understood that duplicate awards were not allowed under the SBIR
program and that he was required to disclose on the proposal's
cover sheet if he had submitted duplicate or equivalent proposals.
The owner admitted that his companies submitted "some identical
proposals and final reports."  The owner claimed that he "submitted
these proposals and final reports, with the intention of extending
the research findings and [that] SBIR award money was invested in
the company to grow the business. None of the money we received for
these 'so-called' duplicate awards [was used] for buying personal
items such as cars or jewelry etc. or any personal item."

     Research Not Conducted by the Companies.  Continued
investigation found that the companies actually performed little,
and in most cases none, of the superconductor research detailed in
SBIR final reports it submitted.  Subpoenaed records from the
companies revealed that they had no laboratory notebooks or other
records to verify that they had conducted the superconducting
research detailed in their SBIR reports.  We determined that the
superconducting research reported by the companies was actually
conducted by postdoctoral researchers and graduate students at two
universities.  With the assistance of NSF and DoD scientists, we
traced the research results and graphs in the company's SBIR
reports to specific experiments conducted at the universities by
reviewing and analyzing laboratory notebooks, research results,
drafts of research articles, and dissertations, which had been
subpoenaed from the universities and their former researchers.
Virtually all of the substantive research reported by the two
companies had been performed at the universities as much as 2 years
before the companies' reports were submitted to the federal
agencies, and the research had been previously submitted for
publication as research articles and dissertations by the graduate
students.  The officers of the companies obtained the
superconducting research results by maintaining professional and
consulting relationships with scientists at these universities.  As
part of the relationships, the university scientists often provided
the companies' officers with preprints of research articles,
dissertations, and research results.  We determined that the
companies had been paid $755,496 from SBIR contracts and grants for
research that the company did not conduct.

     Investigation Results.  Our investigation concluded that every
SBIR award the two companies received was based on a proposal that
contained false statements.  The fraud that these companies
perpetrated was not only against the federal agencies that awarded
the funds, but also against the legitimate and truthful small
businesses that would have received the $1.7 million in SBIR
funding that the company fraudulently obtained.

In November 1995, the company with the most recent SBIR awards pled
guilty to a felony charge of mail fraud as a result of the scheme
to defraud the SBIR programs of several agencies.  The company paid
$600,000 in restitution and was fined $150,000 for its criminal
actions.  In addition, the other related company and its officers
paid $1,123,536 in restitution and $1,596,464 in statutory damages
and penalties in settlement of a civil False Claims action filed by
the U.S. Attorney's Office.  The two companies and two officers
agreed to a 3-year, government-wide debarment, and $908,556 in
current government awards were terminated.  In total, the
government recovered $4.37 million in restitution, fines,
penalties, and canceled awards. This case was successfully
investigated and resolved quickly because of the cooperative
efforts of government investigators, attorneys, and scientists.


Civil False Claims and Administrative
Settlement About Duplicate Funded
SBIR Awards Results in $2 Million Recovery

In the fall of 1992, we received an allegation from an NSF reviewer
that a company had submitted plagiarized material in an SBIR
proposal.  We compared the proposal with the paper and determined
that the company's proposal contained extensive quantities of text,
equations, and tables from an article that was published by a
research group at an academic institution.  Virtually every page of
the scientifically substantive portion of the proposal contained
varying amounts of plagiarized material.  We also received an
allegation from another NSF reviewer that the company's proposal
falsely stated that one of the senior researchers for the project
had a Ph.D. when he did not.  The proposal was not funded.

We did not confine our investigation to the allegations of
plagiarism and misrepresentation in the unfunded proposal, but
reviewed all federal awards to the company.  We discovered that the
company, which developed microcircuits and infrared detectors, not
only submitted plagiarized material and falsely represented its
employees' credentials, it routinely concealed the submission of
duplicate research proposals to the SBIR programs of different
federal agencies through false statements in the proposals and
proposal certifications.  We led an investigative team that
consisted of special agents from NSF, DoD, the National Aeronautics
and Space Administration, and the United States Marshals Service.

With the assistance of scientists from NSF and OIG, we found that
the company made numerous false statements to conceal the
"recycling" of research projects in different proposals.  Some of
the recycled proposals contained only editorial changes, while
others made only slight scientific changes.  However, NSF
scientists explained that the changes were so minor that the
proposed research was essentially equivalent, and
in most cases virtually identical, to the previously awarded
research.  The company's owner admitted in an affidavit that his
actions were intentional.  The owner stated:

     We sometimes recycle old proposals . . . and try to add a new
     twist to them.  Sometimes we become lazy and submit the same
     proposal.  When a proposal is funded a second time we honestly
     try to do different work.  I do agree that we have received
     funding twice for the same proposal.  That is true.  But
     instead of telling the agencies, I give them a different twist
     on the same proposal.

The company submitted additional false and misleading information
in its proposals to influence the peer review process.  The company
often inflated the academic credentials of key personnel by listing
doctorate degrees when, in fact, those individuals only had
bachelors or masters degrees.  The company also listed former
employees, consultants, and former consultants as key personnel in
proposals after those individuals ended their association with the
company and were not aware that their names and credentials had
been submitted in SBIR proposals.

We also learned that the company often submitted falsified or
forged commitment letters in their proposals. Proposers are
encouraged to obtain funding commitments to allow further
development of the product without interruption after government
funding expires.  Peer reviewers evaluate funding commitments when
deciding whether to recommend a proposal for funding.  Many of the
commitment letters the company submitted had been copied from
previous proposals, with only the date being changed.  The company
fabricated other commitment letters by using other companies'
letterheads and forging signatures.

Finally, although the owner claimed that all federal funds were
used for science, the investigation found that the company
mischarged salaries of the company's administrative personnel to
SBIR grants and contracts.  Review of the company's business
records revealed that the salaries for the owner's wife and
brother-in-law, who were officers of the company and only performed
administrative duties, were often charged as engineering labor to
SBIR grants and contracts.  This review found at least $298,000 of
the funds received were not applied to the science funded under
SBIR awards.

Based on the investigation, in September 1993, NSF suspended the
company from receiving federal awards, which resulted in the
suspension of $1.4 million in federal SBIR awards.  In February
1994, the U.S. Attorney's Office for the Central District of
California filed a civil complaint against the company and its
officers for violating the False Claims Act.  In one of the first
actions of its kind, the U.S. Attorney's Office, with assistance
from our attorneys and investigators, requested the defendants'
assets be frozen under the Federal Debt Collection Procedures Act
of 1990.  The U.S. District Court found that the complaint
demonstrated that the defendants were attempting to sell their
properties and transfer their money overseas, and the Court ordered
the federal seizure of the defendants' property and bank accounts.
The government took control of approximately $530,000 in the
company's and the owners' bank accounts.

In March 1996, the U.S. Attorney's Office entered into a civil
settlement that transferred the $530,000 in seized assets to the
government.  Under the terms of the settlement, the defendants
also agreed to the cancellation of $1.4 million in grants and
contracts that had been previously awarded to them.  In addition,
three officers of the company agreed to government-wide debarment
for 3 years, and the company has been dissolved.


President and Owner of Company
Indicted for Wire Fraud and False
Statements in Connection With NSF SBIR Grant

In Semiannual Report Number 13 (page 22), we reported that we
investigated a company as a result of concerns identified by NSF
auditors.  The company obtained over $210,000 in grant funds by
completing and submitting invoices and FCTRs to NSF that falsely
certified that it was expending all funds for scientific research
under the grant.  The PI had proposed to develop technology to
enable the manufacture of a low-cost, table-top x-ray laser.  We
found that the PI on the grant, who was also the company's owner
and sole employee, had conducted less than 3 months of research.
Throughout the 2-year grant period, the PI continued to request and
receive NSF funds without notifying NSF that he had stopped
conducting research.

We referred our findings to the U.S. Attorney's Office, and, on
November 16, 1995, a Federal Grand Jury issued an indictment
charging the PI with six counts of wire fraud, violations of 18
U.S.C.  1343, and six counts of false statements to a federal
agency, violations of 18 U.S.C.  1001.  If convicted, the PI
could be imprisoned.

__________________________________________________________________

TABLE 2:

INVESTIGATIVE STATISTICS

New Referrals                            2

Referrals From Previous
Reporting Period                         3

Prosecutorial Declinations               1

Indictments (including
criminal information)                    2

Criminal Convictions/Pleas               1

Civil Settlements                        2

Administrative Actions                  11

Investigative Recoveries*          $6,315,683

* Investigative Recoveries comprise civil penalties and criminal
fines and restitutions as well as specific cost savings for the
government.  In this reporting period, Investigative Recoveries
include government-wide recoveries on two cases where NSF was the
lead investigative agency.
__________________________________________________________________


Company Submitted False Statements
Concealing Duplicate Proposals

An OIG audit of a company that recently received an NSF award found
that the company routinely submitted similar or identical proposals
to different agencies and did not disclose the prior submission, as
required in the proposals and certifications.

The company received an SBIR Phase I grant from NSF 1 year after
another agency awarded the company an SBIR Phase I contract for
essentially the same research.  The company then submitted the same
research results in the SBIR Phase I final report to NSF and the
other agency.  We concluded that the company submitted false claims
totaling $49,618 to NSF for this grant, a violation of the civil
False Claims Act, 31 U.S.C.  3729.  We also concluded that the
company submitted false statements in the proposals and final
reports concealing the essentially equivalent awards.

The company submitted four different groups of research proposals
to multiple agencies in attempts to receive more duplicate SBIR
funding.  These proposals contained false statements that concealed
that essentially equivalent proposals had been submitted for the
proposed research.  However, even though the company attempted to
get additional duplicate funding for each of the four groups of
research proposals, the company only received one federal award.
The other proposals were declined.

We referred our findings to the U.S. Attorney for possible
initiation of a civil False Claims action against the company.  If
the company is found liable under the civil False Claims Act, the
government may recover triple damages as well as impose penalties
of $10,000 for each false statement and claim.


Review of SBIR Companies
Will Continue

We are convinced of the need to carefully monitor SBIR awardees.
We have now referred five SBIR cases to the Department of Justice.
Three of these cases were identified by audits.  In the other two
cases, the initial indication of wrongdoing was identified by an
NSF program officer and by a peer reviewer, respectively.  We are
glad to report that NSF staff regularly advise our office of
potential problems. In the past 6 months, NSF staff referred three
cases to us for examination.

We are refining our SBIR audit program to focus on analyzing the
truthfulness of information provided to NSF by SBIR awardees. We
are now regularly reviewing reports provided to NSF by SBIR
companies that describe the progress of NSF-funded research.  For
each report we select for review, we intend to check the veracity
of  information provided by the SBIR companies concerning
consultants, subcontractors, and suppliers.  Where information
provided by the companies cannot be reconciled with information
provided by consultants, subcontractors, and suppliers, we intend
to investigate thoroughly all aspects of SBIR awards to those
companies.

Our SBIR audit program will also continue to focus on companies
that receive funding from multiple federal agencies.  The Small
Business Administration coordinates government-wide policy issues
concerning the SBIR program.  Based on our recommendations, which
were endorsed by the General Accounting Office, the Small Business
Administration developed a government-wide database of SBIR awards
and will issue clarifying guidance on "overlapping" proposals.  We
will use this database to compare information provided by SBIR
companies to NSF with information provided to other federal
agencies.  We can then limit our investigations to those companies
that have essentially equivalent or overlapping awards involving
NSF and other federal agencies.

Our refined SBIR audit program should allow us to focus resources
on those companies that have not provided the government accurate
information. It should also allow us to minimize the burden
associated with audits and investigations of companies that are
truthful.  We will also continue to evaluate information gathered
during our investigations to identify vulnerabilities in the
overall SBIR program and recommend additional changes designed to
minimize fraud and abuse.


OTHER CASE INVOLVING DIVERSION
OR MISUSE OF NSF FUNDS


Former NSF Division Director
Sentenced for Embezzling Grant Funds

In Semiannual Report Number 13 (page 20), we reported that our
investigation of a former NSF Division Director, who went on to
work as a senior official for an education association, resulted
in the individual pleading guilty in U.S. District Court to
violating 18 U.S.C.  666, Theft or Bribery Concerning Programs
Receiving Federal Funds.  The individual, who resigned from his
position at the education association during our investigation,
pled guilty in June 1995 and  admitted to embezzling $19,598 in
federal funds that were intended to support official travel
expenses related to grants supporting science education reform.
Based on the guilty plea, NSF debarred the individual from
receiving future federal funds or participating in federal grants
for a 3-year period.

In November 1995, the individual was sentenced in U.S. District
Court to 4 months of electronically monitored home detention, 1,000
hours of community service, and 3 years' probation.  The individual
was also fined $10,000 and ordered to pay full restitution for the
nearly $20,000 he embezzled from federal grants.



OTHER INVESTIGATIVE
ACTIVITIES


We reviewed several other matters involving alleged misuse of NSF
funds and:


     Closed one case without action after we found no evidence to
     support allegations that a university was falsely charging
     student salary charges to an NSF grant.

     Found that an institution improperly charged approximately
     $2,000 in salary charges to an NSF grant for individuals who
     did not work on the grant.  The institution credited the NSF
     grant for the salary charges and agreed to monitor future
     charges carefully.

     Several college students majoring in biological sciences paid
     processing fees for possible scholarships from an organization
     with a name similar to "National Science Foundation."  The
     organization uses a mailing address in Washington, D.C., to
     solicit money from students by representing that the
     organization can award academic scholarships.  Our
     investigation found that the owner of this organization had
     signed an agreement with the U.S. Postal Service in 1994,
     agreeing not to represent that he or his organization
     provides and/or obtains scholarships to promote academic
     studies.  We are currently working with the U.S. Postal
     Inspector Service to enforce the 1994 agreement.

     Memory chips worth $3,500 were missing from several new
     computers purchased by NSF.  We found no evidence that the
     memory chips were stolen from the computers.  Instead, three
     computers had been shipped to NSF from the vendor without the
     memory chips that NSF had purchased.  Our review of the vendor
     found no other irregularities.

OVERSIGHT


The Office of Oversight focuses on the
science-engineering-education-related aspects of NSF operations and
programs.  It oversees the operations and technical management of
the approximately 200 NSF programs that involve about 54,000
proposal and award actions each year.  The Office conducts and
supervises compliance, operations, and performance reviews of NSF's
programs and operations; undertakes inspections and evaluations;
and performs special studies.  It also handles all allegations of
nonfinancial misconduct in science, engineering, and education and
is continuing studies on specific issues related to misconduct in
science.



MISCONDUCT IN SCIENCE
AND ENGINEERING

Codes of Professional Ethics

Many professional associations have codes of ethics, which
represent the collective judgment of members of that profession
about their ethical standards.  Because, in handling allegations of
misconduct in science, we strive to reflect the standards of
practice in the scientific community, we analyzed the content of
these codes.  We were especially interested in identifying which
ethical transgressions were widely condemned and were considered
serious enough to be labeled misconduct in science.  We also sought
to identify areas of agreement and disagreement among the
associations.

We looked at 90 ethics codes from broad-based professional
organizations in fields that NSF funds.  We classified the
statements in the ethics codes, but we have not yet tested whether
different people classify statements in the same way.

Generally, the ethical guidance in the codes does not focus on the
issues involved in investigating and adjudicating misconduct cases.
Statements of scientific ethics exist on a continuum.  At the first
level are descriptions of exemplary conduct.  Ethics codes usually
concentrate on this end of the continuum.  They point toward
ethical ideals that scientists should emulate.  Codes may also
describe the second level on the continuum, proper conduct, which
is a matter of duty.  Whereas aspirations for ethical excellence
have to be stated in terms of a few broad, enduring principles,
duties can be articulated as rules, and doing one's duty requires
less reflection than striving for excellence.  Compared to
principles, rules are relatively numerous, vary somewhat in
different contexts (for example, disciplines have different rules
governing authorship order on publications), and change more
readily.


For our misconduct cases, the crucial part of the  continuum is the
third and fourth levels, where the crucial distinction is between
merely improper actions and actions that are so serious as to
warrant formal corrective steps by the government.  In ethics
codes, statements about exemplary and proper conduct are not
crafted with enforcement in mind.  Ethics codes mainly address
scientists who wish to do good, not scientists who want to know
what evils are so bad as to be punishable.


__________________________________________________________________

NSF's Definition of Misconduct in Science and Engineering

Fabrication, falsification, plagiarism, or other serious deviation
from accepted practices in proposing, carrying out, or reporting
results from activities funded by NSF; or retaliation of any kind
against a person who reported or provided information about
suspected or alleged misconduct and who has not acted in bad faith.
__________________________________________________________________


Failures to do one's duty are common and regrettable.  Professional
ethics codes generally do not delineate which failures are major.
Distinguishing between the bad and the seriously bad is a problem
for enforcement agencies, but not for most practicing scientists.
Perhaps the writers of most ethics codes believe that the
specialized needs of enforcement agencies are best addressed
elsewhere and that the needs of scientists who treat ethical
standards as a constraint and not a guide should not be addressed
 at all.

Truthfulness is a central concern in the ethics codes we examined.
About half of the codes make general statements about the value of
honesty, and a somewhat smaller percentage make general statements
encouraging scientists to properly credit the work of others.  Less
than one-third of the codes include statements about properly
representing one's credentials or avoiding exaggerated statements
of one's conclusions.  Less than one-fifth make specific comments
regarding truthfulness in managing data, proper recordkeeping, data
retention, or particular undesirable publication or authorship
designation practices.

We believe that the codes indicate overwhelming agreement among
scientific societies about scientific ethics.  From our experience
in handling misconduct in science cases, we suspect that the
general principles governing scientific ethics are fairly uniform,
but that relatively specific rules vary somewhat among the
different disciplines.  We found no significant instances of
practices that were questionable in the sense that some
organizations approved them and others did not.

Most codes do not specify whether they are statements of
aspirations or duties.  Among those that clearly stress one kind of
ethics statement, more say they are nonbinding than say they should
be considered enforceable rules. Only nine codes went so far down
the ethical continuum as to formally define misconduct.

We believe that ethics codes can play a valuable educational role
by clarifying standards of excellence and defining what is good
practice.  We found the codes less directly helpful for identifying
serious ethical transgressions.  We think the codes indirectly
support NSF's emphasis on community standards in defining
misconduct, because the codes support the idea that the scientific
community can agree on ethical standards.  We conclude that, at
least for now, articulating those standards can best be done
through close attention to cases and explanations of how, in
specific situations, particular actions are clear and serious
violations of those standards.


NSF's Separation of Investigation
From Adjudication Endorsed

In November, HHS' Commission on Research Integrity issued its
report Integrity and Misconduct in Research.  This report fulfills
the charge the Commission was given to advise the Secretary of HHS
on "issues of research misconduct and integrity such as a new
definition of misconduct, an assurance process for institutional
compliance with DHHS regulations, processes by which to respond to
and monitor related administrative processes and regulations, and
development of a regulation to protect whistleblowers."

One of the Commission's recommendations is that "The Secretary
ensure that the investigation of misconduct and subsequent
adjudication are organizationally separated in DHHS, as they are,
for example, at the National Science Foundation."  This separation
of investigation from adjudication in NSF's procedures is explained
in a paper published by NSF staff members, "Investigating
Misconduct in Science: The National Science Foundation Model,"
Journal of Higher Education, Vol. 65, No. 3 (May/June 1994), pp.
384-400.

The Commission's recommendations are addressed to HHS, rather than
NSF.  Still, we followed the Commission's deliberations with great
interest and are studying its report.


__________________________________________________________________

TABLE 3:

MISCONDUCT CASE ACTIVITY


                                   FY 1995        FY 1996
                                   Last Half      First Half


Active Cases
From Prior Period                       81             76

Received During
Period                                  27             13

Closed Out
During Period                           32             21

In-Process at End of Period             76             68

__________________________________________________________________


MISCONDUCT CASES RESOLVED AS PART
OF DEPARTMENT OF JUSTICE FRAUD CASES


Allegations Against SBIR Firm
Lead to Misconduct Conclusion

In the fall of 1992, we received allegations from three separate
NSF reviewers about proposals submitted by one firm to NSF's SBIR
program.    One reviewer alleged that the PI had copied, without
attribution, three figures from another scientist's published
paper.   We found that the text in the proposal discussing the
figures did contain citations to papers published by the other
scientist; however, only one of these cited the correct paper.  The
other two figures appeared in different articles that were not
cited.  We concluded that, while these practices were sloppy, they
did not constitute misconduct in science and closed the case in a
previous semiannual reporting period.

The  second reviewer alleged that a different proposal submitted by
the same company contained material plagiarized from a paper
published by another research group.  We compared the proposal with
the paper and ascertained that the company's proposal
contained extensive quantities of text, equations, and tables from
that paper.  Virtually every page of the scientifically substantive
portion of the proposal contained some plagiarized material, and a
few pages contained little else.

The third reviewer alleged that, in the proposal discussed in the
second case, a senior scientist had represented that he had a Ph.D.
from a particular academic institution, when in fact he did not.
We found that the researcher had attended the institution but had
received only a specialization certificate, an intermediate degree
between a Bachelor of Science and a Master of Science.  We found
that the same false representation had been made in the proposal in
the first allegation.  None of the proposals discussed above was
funded.

We considered these matters to be sufficiently serious to conduct
our own on-site investigation. That effort was part of a broader
fraud investigation, which is discussed in the Investigations
section of this report. The Justice Department's settlement with
the company involved monetary recovery and government-wide
debarment and stated that the practices described by the second and
third reviewers were serious deviations from accepted practices
under NSF's misconduct in science regulation.  We closed our cases
against the company.


Criminal and Civil Case
Includes Misconduct Activities

We received an allegation that a small company had submitted a
proposal containing false statements to NSF's SBIR program.  The
proposal stated that a university professor had agreed to
participate in the proposed research.  However, according to the
allegation, the professor had made no such agreement and his
signature had been forged.

Our investigation revealed other fraudulent misrepresentations in
proposals from this company and a related company owned by the same
individual, the subject in this case.  The case was referred to the
Department of Justice for prosecution and was resolved by a felony
conviction, a substantial monetary recovery, and government-wide
debarment of the companies and individuals involved, as described
in the Investigations section of this report.

By stipulating to these misrepresentations in the company's felony
plea and civil settlement, the subject admitted to acts that amount
to misconduct in science in addition to criminal and civil fraud.
In particular, the subject had promised in NSF proposals that his
companies would conduct a certain body of research, though, in
fact, postdoctoral researchers and graduate students at two
universities had already performed most of that research and
submitted it for publication.  The subject represented this work as
his own when he reported his results to NSF and requested payment.
By admitting to these actions, he admitted to intellectual theft of
results obtained by others.


CASES SENT TO THE OFFICE OF THE DIRECTOR
FOR ADJUDICATION IN EARLIER SEMIANNUAL PERIOD

__________________________________________________________________

At the beginning of this reporting period, the Office of the
Director had five cases on which we had recommended a finding of
misconduct and which had not yet been adjudicated.  In this period,
three of these were adjudicated, as described below.
__________________________________________________________________


Plagiarism Falsely Attributed
to Student
In Semiannual Report Number 13 (page 35), we discussed the case of
a PI who plagiarized his NSF proposal from an award that another PI
had received from another federal agency.  The subject claimed a
former student had been responsible.  However, our investigation
verified that the student had not been responsible for the
plagiarized proposal.  We recommended that NSF send the subject a
letter of reprimand and debar him from receiving federal funds for
a period of 3 years.  The Deputy Director concluded that the
subject's actions constituted "plagiarism as well as a serious
deviation from accepted practices."  The Deputy Director sent the
subject a letter notifying him of a finding of misconduct in
science and of NSF's intent to debar him for a period of 2 years.


Misrepresentation of Academic
Credentials in NSF Proposal

In Semiannual Report Number 13 (page 37), we discussed the case of
a PI who submitted a proposal in which he falsely claimed to have
a Master's Degree.  We recommended that the subject be sent a
letter of reprimand and be required to certify, if he served as a
PI or co-PI on any NSF proposal over the next 3 years, that he had
not misrepresented any information in his proposals.  The Deputy
Director concluded that the subject's misrepresentation constituted
"falsification and is a serious deviation from accepted practices."
The Deputy Director sent the subject a letter notifying him of a
finding of misconduct in science and of NSF's intent to require
that, for 1 year, when he was named as a PI or co-PI on an NSF
proposal, he certify that the proposal did not contain any false
statements.  This certification is to be sent to the Assistant
Inspector General for Oversight.


Plagiarism of Proposals Received
in Confidence

In Semiannual Report Number 13 (page 36), we discussed the case of
a PI who, in two separate incidents, incorporated material into her
own NSF proposals that was plagiarized from proposals that NSF had
sent her in confidence for merit review.  NSF agreed with our
conclusions and recommendations in this case.  It found that the
subject committed misconduct, and it entered into a voluntary
exclusion agreement with the subject that barred her from applying
for federal funds for a period of 1 year following the date of her
university's final action on the case.  It required that, for 1
year after her voluntary exclusion ended, when the subject is PI or
co-PI on an NSF proposal, she obtain a signed assurance from her
department chair that, to the best of his or her knowledge, the
proposal does not contain plagiarized material.  It also required
that the subject certify that she recently reviewed NSF's
definition of misconduct; to the best of her knowledge, her
proposal is free of misconduct; and her proposal has been
reviewed by her department chair as described above.  This
certification and assurance must be made separately and
confidentially to the Assistant Inspector General for Oversight.
NSF also prohibited the subject from serving as a mail or panel
reviewer or as a member of a Committee of Visitors until February
1998.


CASE CLOSED IN THIS PERIOD WITH
NO INVESTIGATION REPORT TO THE
OFFICE OF THE DIRECTOR


Institution Investigates
Alleged Intellectual Theft

A scientist alleged that another researcher had stolen ideas from
a proposal the researcher was sent for confidential peer review.
The complainant alleged that the subject's publications repeated an
erroneous claim contained in the complainant's proposal and averred
that the subject's repetition of this claim was evidence that the
subject had used the complainant's proposal as a source of his
ideas.

We concluded that an investigation was necessary and informed the
institution of this conclusion.  The institution informed us that
it had already initiated an inquiry into the matter and that the
inquiry committee was about to conclude that the allegations lacked
substance.  The institution stated that, because we had stressed
that the complainant's declined proposal was confidential, the
subject had felt obliged not to share it with the inquiry
committee.  We also learned that the inquiry committee, in addition
to not examining the complainant's proposal, had not interviewed
the complainant.

The institution requested that we delay further investigative
activity to permit the institution to complete its consideration of
the case. The institution concluded that the subject had not
committed misconduct and supplied documentation and reasoning that
supported its conclusions.  We analyzed the institution's report
and the supplemental information that the institution sent in
response to questions we raised about the report.  We concluded
that the report was thorough and objective and that it supported
the institution's findings.

However, the history of the institution's handling of the case
caused us to have special concerns about whether its ultimate
conclusions had been influenced by a predisposition not to find
misconduct.  We were especially concerned about the institution's
apparent readiness to draw conclusions in the absence of necessary
evidence and about its initial willingness to permit scientists
with a close professional relationship to the subject to play key
roles in its examination of the case.  We asked a scientist
knowledgeable about this area of research but unfamiliar with the
investigative history at OIG and the institution to make an
independent assessment of the evidence in the case.  The scientist
shared the judgment of OIG and the institution that the factual
record in no way justified a finding of misconduct.

The institution concluded that the ideas the subject allegedly
misappropriated from the complainant's proposal were available in
the published literature, and it provided citations substantiating
this conclusion.  It noted that the timing of the subject's work
suggested that developments in the published literature, and not
exposure to ideas in the complainant's proposal, were the impetus
for the subject's initiation of the research in question.  The
institution concluded that the subject's data included evidence
supporting the subject's interpretation of the data.  It therefore
determined that the subject's espousal of this interpretation was
not evidence that he had repeated the complainant's scientific
error and misused the complainant's proposal.

This case illustrates how we work with institutions to ensure that
their investigations are sufficiently thorough and unbiased to
provide a sound basis for NSF action.  By closely scrutinizing the
institution's report at the end of the process, we were able to
guard against the effects of possible bias at the institutional
level without preempting the grantee institution's responsibility
as the primary institution for handling misconduct matters.


Staff Activities

Oversight scientists participated in a meeting with the HHS Science
Advisor to the Secretary, the NSF Deputy Director, and other NSF
and HHS staff concerning the recommendations of the HHS Commission
on Research Integrity; met with French scientists from the Centre
National de la Recherche Scientifique (CNRS) in our offices to
discuss OIG's oversight activities; and discussed policies for
handling allegations of misconduct in science involving intramural
research with the National Institutes of Health Committee on
Scientific Conduct and Ethics.

As part of the Office of Oversight's continuing outreach effort,
the scientific staff also explained OIG activities to groups of NSF
staff on six occasions including two NSF Program Management
Seminars.  One scientist joined the Advisory Board of the Ethics
Center for Engineering & Science's World Wide Web page, which is
maintained at the Massachusetts Institute of Technology.

__________________________________________________________________

TABLE 4:

ASSURANCES AND CERTIFICATIONS RECEIVED*

Number of Cases Requiring
Assurances at End of Period                       5

Number of Cases Requiring
Certifications at End of Period                   8

Assurances Received
During This Period                                0

Certifications Received
During This Period                                3

* NSF accompanies some findings of misconduct in science with a
certification and/or assurance requirement.  For a specified
period, the subject must confidentially submit to the Assistant
Inspector General for Oversight a personal certification and/or
institutional assurance that any newly submitted NSF proposal does
not contain anything that violates NSF's regulation on misconduct
in science and engineering.  These certifications and assurances
remain in the OIG and are not known to, or available to, NSF
program officials.
__________________________________________________________________



INSPECTIONS AND EVALUATIONS

Our inspections are on-site reviews conducted at NSF or at
organizations that receive NSF funding.  Inspection findings and
recommendations highlight what works well and identify problems or
deficiencies so that managers at NSF and the funded organization
can improve their operations and better achieve research and
education goals.  Inspection teams look for early indications of
financial, administrative, or compliance problems so they can
be addressed before they become so serious that their resolution
requires an audit or investigation.

We designed our inspections program to improve our understanding of
NSF's grantee activities by integrating financial, administrative,
and program analyses in a single review.  We view inspections as an
effective approach because they allow us to determine whether NSF's
program goals are being achieved as well as review the financial
and administrative management of NSF awards.  Inspections are
conducted by multidisciplinary review teams that may include
scientists, engineers, auditors, computer specialists,
investigators, lawyers, and management/program analysts.

We completed four inspections during this reporting period: one at
a private, nonprofit research institution in the northeast; two at
private universities in the midwest and the southeast; and one at
a state university in the southwest.  Awards from the Directorates
for Social, Behavioral and Economic Sciences; Engineering;
Biological Sciences; Computer and Information Science and
Engineering; and Education and Human Resources served as the bases
for our inspections.

Three of these inspections began after October 1, 1995, which was
the effective date of NSF's Investigator Financial Disclosure
Policy.


INSPECTION AT A PRIVATE, NONPROFIT
RESEARCH INSTITUTION IN THE NORTHEAST

This inspection was based on 11 awards made by NSF's Directorate
for Social, Behavioral and Economic Sciences to a private,
nonprofit, and nonpartisan research institution to support
institution-affiliated researchers who collectively represent a
broad range of policy and theoretical perspectives in economics.
These researchers, who are regularly employed at colleges and
universities, use state of the art quantitative techniques to
conduct empirical studies on economic issues relevant to U.S.
government and business.

Indirect Cost Rate

NSF is the cognizant audit agency for this institution and sets its
indirect cost rate.  This rate covers the costs the institution
incurs for activities, such as accounting, secretarial, and
administrative work, that indirectly support the work done under
federal awards.

Our review identified several items that the institution classifies
as indirect costs of federal awards that we believe should not be
part of the indirect cost pool.  In a memorandum to NSF management
sent after we completed our inspection, we recommended that NSF
financial and program managers exclude these items and recalculate
the indirect cost rate.  We estimate the savings to the government
of adopting these recommendations to be about $800,000 over 5 years
and almost $2.8 million over 10 years.

Specifically, we recommended that most publication costs be charged
either as direct costs to the federal award that supported the work
the publication reports or, if they are not direct costs of federal
awards, be paid for out of the institution's own funds.  We also
recommended that, if the institution continues to include
publication costs as indirect costs of federal awards, the
institution offset publication costs with the income that the
publications generate.

The institution pays $3,000 in honoraria from time to time to
affiliated economists who participate actively in its research
programs and includes these payments in its indirect cost pool.  We
concluded that these payments should be excluded because they are
made in recognition of a mixture of activities, many of which are
either direct costs to federal awards or are not costs to federal
awards at all; in some cases, they were not consistent with NSF's
policy of limiting PIs' supplemental salary compensation to
two-ninths of their academic salaries; and they were not supported
by appropriate time and attendance reports.

Most research under awards to the institution is conducted away
from the institution.  We recommended that NSF establish separate
indirect cost rates for on- and off-site activities at the
institution.  In our estimates above, we have not included the cost
savings that adopting this recommendation would yield.

Program Officers' Participation
in Setting Indirect Cost Rates

Officials in NSF's CPO told us it did not consult with
knowledgeable NSF program officials when it set the institution's
indirect cost rate.  We learned that it therefore lacked basic
information about the kinds of activities the government supported
at the institution, such as the information that most work was
conducted off-site.  We recommended that CPO consider making it a
routine practice to consult NSF program officials when setting
indirect cost rates for institutions to which NSF has a significant
commitment.

The Directorate for Social, Behavioral and Economic Sciences
strongly endorsed our recommendations about the institution's
indirect cost rate.  CPO agreed that it needed to consult with
program officials in this case to determine whether to reclassify
certain honoraria and publication costs and whether to establish an
off-site indirect cost rate.  CPO stated that it was likely to
recommend changes in the institution's rate.  It said that it may
increase consultation with program officials when setting indirect
cost rates, but that it does not believe it is necessary to make
this a routine practice.

The institution responded that many publication costs were
difficult to anticipate and that NSF program officials did not wish
to support the institution's working paper series as a direct cost
activity.  However, we believe that program officials are in the
best position to determine whether the working papers series yields
direct or indirect benefits to NSF-supported research that justify
the cost of federal support.  We believe the program officials'
judgment that the government should not pay the costs of the
working papers series suggests that the institution should pay for
these costs with its own funds, not that NSF ought to treat these
as indirect costs.  The institution said it planned to develop
documentation to demonstrate that honorarium payments covered
management costs that were allowable as indirect costs.  The
institution said that most researchers, whether located on or off
site, received the same benefits from their affiliation with the
institution and that having two separate rates would be
administratively burdensome.

Reviewer Conflicts of Interest

We concluded that this institution's unique role in the economics
discipline posed special problems for NSF in securing knowledgeable
and unbiased reviews of proposals from institution-affiliated
economists.  NSF awards approximately one-quarter of the grant
funds from its economics program to this institution, and, in many
subfields of economics, most leading researchers are affiliated
with this institution.  At the time of our inspection, NSF
permitted institution-affiliated economists to review proposals
from the institution  under most circumstances.  We recommended
that NSF ask its Office of General Counsel (OGC) to review this
practice.  We recommended that, if OGC determines this practice is
legally permissible, NSF take action to ensure that NSF is fully
informed of reviewers' involvement with the institution.

Because the primary employment affiliation for
institution-affiliated economists is their university and not the
institution,  NSF is not always aware of an affiliation with the
institution that creates a potential conflict of interest.  We
recommended that, when NSF solicits reviews of institution
proposals, it elicit information from prospective reviewers about
the nature and extent of their involvement with the institution.
NSF agreed with our recommendations about the review of institution
proposals and indicated that NSF's OGC was revising its guidance on
how to handle the review of  proposals from this institution by
institution-affiliated economists.   However, NSF indicated that it
preferred to handle the problem of obtaining current information on
potential institution conflicts by having the institution send NSF
a list of economists who have had administrative or financial
relationships with the institution during the preceding year.  NSF
would request this list twice a year before each review cycle.  NSF
noted that this approach would be simple and efficient and  would
enable NSF to avoid sending proposals from the institution to
conflicted referees.

Handling Allegations of
Misconduct in Science

The institution agreed with our recommendations to strengthen its
policy by adopting NSF's definition of misconduct in science and
identify a preponderance of the evidence as the standard of proof.
The institution indicated it will reconsider its current policy of
immediately informing the subject of an allegation in light of our
concern that this would not be practicable in some circumstances.
As of the time of our inspection, this institution had not received
any allegations of misconduct in science.

PI Financial Disclosure Policy

The institution agreed to revise its Conflict of Interest Policies
and Procedures to include adequate enforcement mechanisms and
sanctions and provisions for keeping NSF's OGC informed if the
institution were to be unsuccessful in managing an investigator
conflict of interest.

Drug Free Workplace

The institution noted that it has not experienced any instances of
drug abuse in the workplace.  However, it agreed to amend its
policy and practice to ensure that employees are informed of  the
dangers of drug abuse in the workplace and of employee
responsibilities under the requirements of the 1988 Drug Free
Workplace Act.


INSPECTION AT A PRIVATE UNIVERSITY IN THE MIDWEST

This inspection was based on nine grants in civil and mechanical
engineering that NSF's Directorate for Engineering awarded to a
private university.   Four of the awards were for basic research,
three were for equipment, one was a research initiation award, and
one was an NSF Young Investigator Award.  The university generally
gave excellent support to research.  We did, however, recommend
that the university formalize and communicate its policies and
procedures  in some areas affecting research.


Handling Allegations of
Misconduct in Science

Although the university certified annually to the Public Health
Service that it had an official policy on misconduct in science by
faculty members, it had only a draft policy. As a result of our
recommendations, the university agreed to formalize its policy and
publish it in the Faculty Handbook.  The university's policy and
procedures regarding misconduct by graduate students were not
generally known within the College of Engineering, even by graduate
students.  We recommended that they be made widely known within the
College and that individual departments make their policies
consistent with university policy.  We also recommended that the
university's policies on misconduct by faculty, graduate students,
and undergraduate students be made consistent with NSF's misconduct
in science regulation.  The university agreed with all of these
recommendations and outlined the steps it was taking to implement
them.

Data Collection and Retention

The university had no formal policy on data collection and
retention, though it did have a draft document.  Practices
regarding data retention and security seemed to be informal.  The
university agreed with our recommendation to formally approve its
policy on data retention and access and provided a detailed
description of how data files are stored, secured, accessed, saved
for backup and archived.

Financial Controls

The university generally complied with NSF's and other federal
financial regulations.  However, we did suggest that the university
could strengthen its internal controls over federal funds by
modifying its property management system and  improving its
accounting for cost sharing requirements.   The university agreed
that it would enhance its property management system by placing
inventory tags on all equipment valued at $5,000 or more that is
funded partially or wholly by the government, as well as by
maintaining a written record of the location and condition of
equipment.  The university's practice has been for faculty members
to orally report changes in the location and condition of
equipment, but this information was not recorded in the official
property management system.  The university stated that it
anticipates installation of a new property management system in the
near future.

The university agreed to consolidate its cost sharing records by
recording all cost sharing as part of the university's official
grant ledger except for in-kind contributions that typically
represent tuition remission, which can be verified through the
university's Student Accounts record.  The university stated that
its Office of Restricted Funds Accounting will review these
accounts to verify the cost sharing commitment is met.

PI Financial Disclosure

We assessed the university's policy and procedures for PIs
regarding conflicts of interest and determined that the university
has formulated a conflict-of-interest policy and established and
implemented a financial disclosure system that will identify,
manage, and resolve conflicts of interest as required by NSF's
Investigator Financial Disclosure Policy.  We note that NSF's
policy was not in effect when this inspection was conducted.


INSPECTION AT A PRIVATE UNIVERSITY IN THE SOUTHEAST

This inspection included 10 NSF grants.  NSF's Directorate for
Biological Sciences awarded six grants for basic research, one for
equipment, and one for a Research Experiences for Undergraduates
(REU) site grant.  NSF's Directorate for Education and Human
Resources awarded two grants for instrumentation and laboratory
improvement.

Financial Management
and Controls

The university generally complied with NSF's and other federal
award requirements.  We noted only three immaterial weaknesses and
minor lapses in financial management and internal controls.  The
university maintained excellent written policies and procedures
that assisted its personnel in complying with federal requirements.
The Department of Biology's equipment records were in exceptionally
good order.  We believe the university's compliance with federal
requirements demonstrated that personnel in the university's
Accounting and Biology departments were familiar with most federal
requirements.

Integration of
Research and Education

Research and education were highly integrated in the university's
Biology Department.  The Biology Department emphasized engaging
undergraduate students in research through intensive projects in
undergraduate courses and by integrating the students into faculty
research.  PIs relied heavily on undergraduate students to carry
out their research programs.  NSF's REU site award and individual
REU supplements were important in stimulating this undergraduate
involvement.  The equipment awards also contributed to the quality
of the undergraduate laboratory experience.  The students we spoke
with were very pleased with their undergraduate research
experience.  Sometimes the students were listed as authors on
publications because of their contributions to the laboratory
research, but  none of the undergraduates we spoke with said they
had written a research publication or part of one.  We believe that
when student authorship is justified by the extent of research
contributions, but the PI's greater expertise dictates that he or
she write the paper, PIs should ensure that all authors, including
students, take full responsibility for their contributions to the
manuscript.

Policies for Handling and
Preventing Misconduct in Science

The university had published guidelines addressing many areas of
desirable research practices. The university had a readily
available Misconduct in Science Policy and guidelines for the
responsible conduct of research.  The latter addressed authorship
as well as data retention and sharing.  Another policy statement
covered data collection.  These documents were often available in
the PI's office or laboratory.  Students reported that they
received instruction on data collection and recordkeeping either
in their laboratory courses or informally from PIs.  Graduate
students in the Department were required to take a course in
research ethics, which explained the university's  policies for
handling misconduct.

Because of the university's strong emphasis on involving
undergraduate students in research, we were especially concerned
about the applicability of its misconduct in science procedures to
undergraduate students. The university handled allegations of
misconduct by students through its Honor Code, which could result
in a different finding from that under the university's Misconduct
Policy or NSF's definition of misconduct in science.  We therefore
recommended that the university revise its policy to ensure that
allegations of misconduct by students are handled in conformity
with NSF's misconduct regulation.  The university agreed that it
would ensure that allegations of student misconduct in research are
properly investigated.

Because the university's Misconduct Policy was last revised in
1989, it contains certain information or references that are
inapplicable or outdated.  We therefore recommended that the
university revise its Misconduct Policy to eliminate inapplicable
or outdated references and to ensure that the Policy contains no
provisions that are inappropriately attributed to NSF regulations.
Moreover, because the university's  Policy prohibits fraud in
research, we recommended that it revise its Policy to ensure that
it covers gross negligence as well as intentional or knowing acts
of misconduct. We also recommended that the university's  Policy
specify a standard of proof for misconduct determinations.
Finally, to promote confidentiality, we recommended that the
university revise its Misconduct Policy to limit notification of
the existence of an allegation to individuals principally involved
in its resolution.  The university generally agreed with these
recommendations and indicated that it would revise its Misconduct
Policy to address NSF's concerns.

PI Financial Disclosure Policy

We recommended that the university strengthen its policy on
addressing federal investigator financial disclosure regulations by
articulating its rules in a new set of documents separate from
those originally written for other purposes.  The university
explained that its policy was written to comply with both National
Institutes of Health and NSF's final rules for investigator
financial disclosure.  The University said it will consider our
comments but it is doubtful that it will elect to implement a
second conflict-of-interest policy for government-sponsored
research because a multiplicity of policies invariably leads to
faculty confusion.


INSPECTION AT A STATE UNIVERSITY IN THE SOUTHWEST

This inspection included nine NSF grants.  NSF's Directorate for
Computer and Information Science and Engineering awarded five
grants for basic research, one for equipment, and one for travel
costs of  U.S. participants at an international workshop.  NSF's
Directorate for Education and Human Resources awarded one grant for
research improvement at a minority institution, and NSF's SBE
awarded one grant for USA-Europe collaborative research.

Financial Controls

The university generally complied with NSF and other federal award
requirements.  However, we did make recommendations that we believe
would increase the university's compliance with federal
regulations and strengthen its internal controls.  These
recommendations included appropriate use of participant support
funds,  adequate supporting documentation for travel costs, timely
completion of personnel activity reports, and appropriate
classification of costs to its book of accounts to avoid
overcharging NSF's awards for indirect costs and overstating its
claimed cost sharing.  The university generally agreed with these
recommendations and indicated it will take steps to ensure
compliance except for the recommendation regarding travel.

Human Subjects Regulation

Of the nine grants included in this inspection, one grant and one
supplement to another grant described research with human subjects.
Federal regulations require that such research be approved and
conducted in accordance with C.F.R. 690, the Common Rule on
Protection of Human Subjects.  Any human subjects research not
determined to be exempt from the Common Rule by both the grantee
and NSF, must receive initial approval from both organizations and
be reviewed annually by the grantee's Institutional Review Board.
We found that the grantee had reviewed and approved the research in
the grant but not in the supplement, NSF had neither reviewed nor
approved the human subjects research in either instance, and the
institution did only spotty annual reviews.  We learned that the
research described in the grant had been conducted, but the
research in the supplement had not.  We concluded that, had the
research been reviewed by NSF, it would most likely have been
considered exempt from the Common Rule.

We learned that the NSF program officers responsible for these
grants were generally unaware of their responsibilities under the
Common Rule. We were concerned that the process of reviewing and
approving such research had failed at both the institution and NSF
and made recommendations to correct this situation.  The university
agreed with our recommendation that it revise its policies to
ensure that its procedures conform to the Common Rule. We
recommended that NSF provide a refresher training session for all
NSF program officers and include a discussion of the Human Subjects
Regulation in the Program Management Seminars, which are conducted
annually for new program officers.

NSF records pertinent information about funding proposals on Form
1036, the Action Processing Form.  The Form contains a line item
that requests a "Y" (yes) or "N" (no) response to indicate whether
the proposal contains human subjects research.  For all NSF
divisions except Social, Behavioral, and Economic Research this
line is set to a default condition of "N."  We suggested that NSF
consider removing the default so that program managers are required
to type "Y" or "N" based on their review of the proposal.

In response to our suggestions, NSF's Deputy Director said that the
discussion on  human subjects at the Program Managers Seminars
would be "augment[ed]  . . . appropriately."  She noted that there
are "occasional briefings" for program staff members and that when
the updated Proposal and Award Manual, which contains revised
materials on human subjects, is issued, it will "help ameliorate
the current uneven distribution of knowledge about research
involving human subjects."  She also said that "the benefit
realized by changing the current [1036] practice is not
commensurate with the cost on program officer time and
productivity" but called for a records review to see if there are
areas of the Foundation where such research is "sufficiently
common" to warrant a change in the default condition of the line
item.

Handling Allegations of
Misconduct in Science

We concluded from our review of the university's policy for
handling cases of misconduct in science that the policy was so
deficient that, should the situation arise, we would be unable to
defer an inquiry or investigation to it.  For example, the policy
differs from NSF's regulation by providing for two separate
inquiries, one by the department chair and the second, if needed,
by the dean, after which a formal investigation may take place.
Senior university officials are informed of the case only when the
second inquiry begins, and the funding agency is informed only when
the investigation begins.  In the case of minor infractions,
sanctions can be imposed after the second inquiry and no
investigation is required.  We were concerned that this process
encourages the informal resolution of potentially important cases
at the department or college level, without notification of the
funding agency, without the safeguards of the formal misconduct
process, and without consistency across the institution.

In addition, allegations must be in writing, may not be anonymous,
and must be evaluated by the department head regardless of that
person's involvement in the allegation.  We were concerned that
these provisions might intimidate whistleblowers.  In serious cases
of misconduct, imposed sanctions can be appealed through one of
three different procedures, which we believe can cause confusion.

The faculty members we interviewed were generally unaware of the
university's current policy on handling misconduct in science.  We
learned that students alleged to have committed misconduct in
science under NSF awards would be handled administratively under
the Student Code of Conduct.  Even if action were taken against the
student for confirmed misconduct, NSF would not be notified.  We
recommended that the university review its policy, and the
university agreed.  The university stated that it would conduct
training sessions to increase faculty awareness.

PI Financial Disclosure Policy

The university did not have a final conflict-of-interest policy
that met the requirements of NSF's Investigator Financial
Disclosure Policy.  The university's designated official
responsible for implementing the university's conflict-of-interest
policy admitted that PIs had not made NSF-required financial
disclosures on 11 proposals submitted to NSF since October 1, 1995,
the effective date of NSF's policy.  We  informed NSF officials in
CPO of this situation.  NSF informed us that it has contacted the
university about this matter and indicated that it will ensure that
the  university takes corrective action or appropriate sanctions
will be imposed on the university.  In our report, we recommended
that:

     the university immediately ensure that all required
     investigator financial disclosures have been made and reviewed
     for all proposals submitted to NSF since October 1, 1995;

     the university establish an appropriate written and enforced
     conflict-of-interest policy that meets the requirements of
     NSF's Investigator Financial Disclosure Policy;

     the university disseminate its conflict-of-interest policy to
     all investigators and cognizant administrators or officials to
     ensure that investigators submit timely and appropriate
     financial disclosures for proposals submitted to NSF and the
     designated official review disclosures and resolve any
     resulting actual or potential conflicts of interest; and

     the university establish a system to maintain records of all
     financial disclosures and of all actions taken to resolve
     conflicts of interest for at least 3 years beyond the
     termination or completion of the grant to which they relate,
     or until the resolution of any NSF action involving those
     records, whichever is longer.

The university responded that, by March 15, 1996, all required
financial disclosures will have been made and reviewed for all
proposals submitted to NSF since October 1, 1995.  The university
accepted all of our other recommendations and stated that the
university's revised policy will be adopted by the administration
during the 1996 spring semester.


LEGAL

Attorneys provide legal advice on all OIG activities, including
investigations, audits, and oversight of NSF's functions and
programs.  OIG attorneys supported many of the activities that are
described in other sections of this report.

Under section 4 (A) (2) of the Inspector General Act, OIG is
required to review and make recommendations concerning legislation
and regulations that affect NSF and NSF-funded activities.  OIG
attorneys are responsible for conducting these reviews as well as
general oversight of NSF's legal activities.



CONFLICTS ISSUES


Status of Conflicts Rules

In August 1992, the Office of Government Ethics (OGE) promulgated
new uniform standards of ethical conduct for executive branch
employees.  Before OGE finalized its standards, we expressed
concern that these new standards might supersede certain ethics
standards that NSF had tailored specifically for the agency (see
Semiannual Report Number 5, page 38).  Since the standards were
finalized, NSF has worked with OGE to implement supplemental ethics
standards that are tailored to NSF's needs.  OGE approved
supplemental ethics standards for NSF in late 1994.  As of the end
of this reporting period, NSF's Office of General Counsel was still
studying these supplemental ethics standards, and they have not
been implemented.

However, in this reporting period, NSF did implement our
recommendation, discussed in Semiannual Report Number 12 (page 43),
that the agency require that scientists assigned to NSF under the
Intergovernmental Personnel Act (IPA) sign a contractual agreement
to comply with OGE regulations on financial disclosure and
standards of ethical conduct.  The agreement puts the IPAs on
notice that they are subject to appropriate administrative
sanctions if they fail to comply with the regulations.

We also mentioned in Semiannual Report Number 12 (page 43) that the
House Committee on Science added a provision to the Omnibus
Civilian Science Authorization Act of 1995 (H.R. 2405,  127) that
would subject NSF IPAs to the financial disclosure requirements and
related sanctions under the Ethics in Government Act.  Although
this bill was passed by the House of Representatives during this
reporting period, the Senate has not yet acted on the legislation.

Board Committee Reexamines Salary
Ban for Board Members

It is long-standing NSF policy that members of the National Science
Board (NSB) may apply for and receive awards from NSF, if they
designate a "substitute negotiator" to represent the project and
their institution in dealings with NSF officials, and do not
receive salary under an award made while they are Board members.
In this reporting period, the Board Chairman asked the Board's
Audit and Oversight Committee, with the assistance of the General
Counsel, to review the salary policy on Board Members' proposals
and report back to the Board.

Under 18 U.S.C.  208, federal employees are prohibited from
knowingly participating personally and substantially in a
particular matter in which they have a financial interest.  Some
Board members have a long history of NSF funding, and we believe
that, by virtue of their preeminent stature in their respective
fields of science, they have reasonable expectations that they will
continue to receive NSF funding.  We therefore expressed concern to
NSF's General Counsel about whether, consistent with section 208,
all Board members should participate in considering whether to
change the salary policy--unless the change being considered
affected only future Board members.

The Chairman of the Audit and Oversight Committee addressed this
concern by deciding that the Committee would only consider policy
options that did not involve changing the salary policy for current
members of the Board.  When the Committee met and discussed the
issue, its members voted to recommend no change in the salary
policy to the full Board.


OTHER LEGAL
ISSUES


Analysis of Legal Sufficiency
of NSF's Misconduct in Science
Definition to be Published

In Semiannual Report Number 13 (page 49), we discussed the legal
sufficiency of the phrase "serious deviation from accepted
practices" in NSF's misconduct in science regulation.  We concluded
that the concept of serious deviation from accepted practices, as
defined by the relevant scientific community's standard of
professional conduct, is no less definite than standards of conduct
upheld by the Supreme Court and other courts for other professions.
Our manuscript containing a detailed legal analysis of this issue
was recently accepted for publication in Jurimetrics Journal of
Law, Science and Technology, the official journal of the American
Bar Association's Section on Science and Technology.  The article
will likely be published this summer.


General Accounting Office Approves
Use of Appropriated Funds
to Support the Annual Awards Dinner

As discussed in Semiannual Report Number 10 (page 42), in response
to OIG recommendations, NSF requested an opinion from the
Comptroller General as to whether NSF can use appropriated funds to
cover some of the expenses associated with its annual NSB awards
dinner, which honors young scientists of exceptional promise.

The Comptroller General concluded in a February 1996 opinion that,
because the award being presented was statutorily authorized, the
use of such funds was permissible for this occasion.  The
Comptroller General pointed out that NSF's authorizing legislation
allows it to make expenditures that are necessary to carry out its
functions.  Since the Alan T. Waterman award presented at the NSB
dinner is a statutorily created award designed to recognize the
achievements of young scientists, the Comptroller General found
that the expenses associated with its presentation are necessary.
Furthermore, based on prior decisions regarding the proper
presentation of awards that confer upon the recipient a measure of
public recognition, the Comptroller General concluded that an
awards dinner attended by prominent scientists is an appropriate
forum for presentation of the award.  Accordingly, it is
permissible to spend appropriated funds on the dinner-related
expenses of the annual NSB awards dinner.

The opinion concluded that since the annual NSB dinner is an
appropriate forum for presentation of the Waterman award, the cost
of the recipient's and his or her spouse's travel and per diem are
also necessary expenses that may be paid for from NSF's
appropriation.

Antarctic Legislation Introduced

For several years, NSF has been working to achieve consensus with
Greenpeace, the Antarctica Project, and other environmental groups
on implementing legislation for the Antarctic Treaty's Protocol on
Environmental Protection.  In this reporting period, Representative
Walker, Chairman of the House Science Committee, introduced
legislation entitled, "The Antarctic Environmental Protection Act
of 1996."  The bill prohibits the introduction of banned
substances, the disposal of waste on ice-free terrain or into
freshwater systems, the disposal of waste that the Treaty requires
to be removed, and the open burning of waste.  It also prohibits
the disposal of waste into Antarctic waters, introduction of
nonnative species, the taking of native mammals or birds, and the
harmful interference with plants, except pursuant to a permit.  The
legislation requires comprehensive environmental evaluations when
any federal activities in the Antarctic will have more than a minor
or transitory impact on the environment.

Reciprocity Between Procurement
and Nonprocurement Debarment and
Suspension Regulations

Procurement and nonprocurement debarment and suspension are
accomplished under two different regulations for a variety of
federal departments and agencies.  "Procurement" involves
purchasing things or services, such as NSF's contract with a
manufacturer for computer equipment.  "Nonprocurement" relates to
government funding for other purposes, such as NSF's provision of
funds to scientists for scientific research.  In the past, when an
agency wished to debar a person from receiving both procurement and
nonprocurement awards from the federal government, it had to debar
the person separately under each of the two debarment regimes,
following procedures set out in two separate regulations.  However,
NSF recently joined with 33 federal departments and agencies to
promulgate regulations that provide for reciprocity between
procurement and nonprocurement debarment and suspension systems.
Now, when a person is debarred under either an agency's procurement
debarment and suspension regulation or an agency's nonprocurement
debarment and suspension regulation, the person is ineligible to
participate in both nonprocurement and procurement actions.

AGENCY REFUSAL TO PROVIDE
INFORMATION OR ASSISTANCE

During this reporting period, there were no reports made to the
National Science Board of instances where information or
assistance, requested under Section 5 (a)(5) of the Inspector
General Act of 1978, as amended, was unreasonably refused or not
provided.


SIGNIFICANT MANAGEMENT
DECISIONS THAT WERE REVISED

No significant management decisions were revised during this
reporting period.


INSPECTOR GENERAL'S DISAGREEMENT
WITH SIGNIFICANT MANAGEMENT DECISION

The Inspector General has no disagreement with significant
management decisions made during this reporting period.



LIST OF REPORTS

NSF and CPA Performed Audits

We issued the following audit reports during this reporting period.
Where applicable, the total dollar value of questioned costs
(including a separate category for the dollar value of unsupported
costs) is listed for each report.


                         Date Report    Questioned     Unsupported
Number    Grantee             Issued         Costs           Costs

          South
          Dakota
          Department
          of Education
          and Cultural
96-1001   Affairs            11/09/96       47,246          5,778

          North
          Carolina
          Office of the
96-1002   Governor           10/01/96      181,459         25,808

          University
          of Texas
96-1003   at Austin          11/14/95      514,268        109,165

          New Jersey
          Department
96-1004   of Education       01/30/96      584,460        584,460

          Sacramento City
          Educational
96-1005   Foundation         03/01/96        2,911              0

          Jefferson County
96-1006   Public District    11/10/95        8,680              0

96-1007   Bennett College    11/18/95            0              0

          Santa Ana Unified
96-1008   School District    01/09/96        3,481              0

          Society of
          Automotive
96-1009   Engineers          03/26/96       33,962              0

          Minnesota
          Environmental
          Sciences
96-1010   Foundation         03/15/96            0              0

          Miami Museum
96-1011   of Science         03/15/96       14,450          1,897

96-1012   The Network        03/15/96       35,899         11,713

          Canton City
96-1013   Schools            03/15/96            0              0

          American
          Educational
          Research
96-1014   Association        03/20/96      211,879         34,106

          Blackfeet
          Community
96-1015   College            03/29/96      258,955              0

          D.C. Public
96-1016   Schools            03/26/96       24,115            295

          Normandy
          School
96-1017   District           03/26/96        2,109          1,750

          Woodrow Wilson
          National Fellowship
96-1018   Foundation         03/27/96       24,657              0

          Kentucky
          Department of
96-1019   Education          03/28/96            0              0


          Montana State
96-1020   University         03/28/96       11,812              0

          Little Big
96-1021   Horn College       03/28/96       67,452         67,427

          Civil
          Engineering
          Research
96-1022   Foundation         03/28/96       24,625          2,130

          Delaware
          State
          Department of
          Public
96-1023   Instruction        03/28/96      465,507        465,507

96-1024   The College Board  03/28/96      171,663         18,829

          Franklin
          Institute
          Science
96-1025   Museum             03/28/96      237,678         119,165

          Council for
          Basic
96-1026   Education          03/28/96      307,518         305,718

96-1027   Abt Associates     03/28/96      828,915         611,432

          Prince George's
          County Public
96-1028   Schools            03/29/96      182,544         170,348



INTERNAL AUDITS

                         Date Report    Questioned     Unsupported
Number    Grantee             Issued         Costs           Costs

          Review of NSF's
          Federal Cash
          Transactions
96-2101   Report System       03/29/96            0              0

          Review of Electronic
          Data Processing
96-2102   Controls in the FAS 03/29/96            0              0

          NSF's Long Distance
96-2103   Phone System        03/21/96            0              0

          Management
          Recommendations
          to Office of
96-2104   Polar Program (ASA) 03/29/96            0              0

          Management
          Recommendations
          to the Directorate
          for Biological
96-2105   Sciences (MBL)      03/28/96            0              0

          Management
          Recommendations
          to the Division
          of Social,
          Behavioral
          and Economic
96-2106   Research (NBER)     03/29/96            0              0

          Review of NSF's
96-2107   Budget System       03/29/96            0              0

          Review of
          Statewide
          Systemic
96-2108   Initiatives         03/29/96            0              0



NSF Cognizant Audits


                         Date Report    Questioned     Unsupported
Number    Grantee             Issued         Costs           Costs

          American Museum
          of Natural
96-4001   History           10/30/95             0              0

          American Educational
          Research
96-4002   Association       11/01/95             0              0

          Consortium
          for Mathematics
          and its
96-4003   Applications      11/01/95             0              0

          American
          Meteorological
96-4004   Society           11/01/95             0              0

          Association of
          American
96-4005   Geographers       11/02/96             0              0

          American Bar
          Foundation
96-4006   (FY 1994)         01/23/96             0              0

          American Bar
          Foundation
96-4007   (FY 1995)         01/23/96             0              0

          Institute
          for Research
          on Learning
96-4008   (FY 1993)         01/23/96             0              0

          Institute
          for Research
          on Learning
96-4009   (FY 1994)         01/23/96             0              0

          Nebraskans for
          Public
          Television, Inc.
96-4010   (FY 1992)         01/23/96             0              0

          Nebraskans for
          Public
          Television, Inc.
96-4011   (FY 1992)         01/23/96             0              0

          Boyce Thompson
          Institute for
96-4012   Plant Research    03/09/96             0              0

          Bermuda Biological
          Station for
          Research, Inc.
96-4013   (FY 1992)         03/17/96        21,605         12,834

          Bermuda Biological
          Station for
          Research, Inc.
96-4014   (FY 1993)         03/17/96         1,500              0

          The American
          Society of
          Mechanical
          Engineers
96-4015   (FY 1994)         03/13/96         1,744            399

          Association
          of Science-
          Technology
96-4016   Centers           03/13/96             0              0


          Astrophysical
          Research
96-4017   Consortium        03/13/96             0              0

          Montana Council
          of Teachers of
96-4018   Mathematics       03/13/96             0              0

          Astronomical
          Society of
96-4019   the Pacific       03/13/96            77              0

          Astronomical
          Society of
96-4020   the Pacific       03/13/96           235              0

96-4021   The Bakken        03/15/96             0              0

96-4022   The Bakken        03/15/96             0              0

          Association
          of Science-
          Technology
96-4023   Centers           03/15/96             0              0

          National
          Council of
          Teachers of
96-4024   Mathematics       03/15/96             0              0

          National
          Council of
          Teachers of
96-4025   Mathematics       03/15/96             0              0

          Philadelphia
          Education
96-4026   Fund              03/19/96             0              0

          Nantucket
          Maria Mitchell
96-4027   Association       03/25/96             0              0

          QED
          Communication,
96-4028   Inc.              03/25/96             0              0

          Genetics
          Society of
96-4029   America           03/25/96             0              0

          Scientific
          Committee on
          Ocean
96-4030   Research          03/25/96             0              0

          New York
          Botanical
96-4031   Garden            03/25/96             0              0

          Cincinnati
          Museum of
          Natural
96-4032   History           03/25/96             0              0

          Cincinnati
          Museum of
          Natural
96-4033   History           03/25/96             0              0

          Cincinnati
          Museum of
          Natural
96-4034   History           03/25/96             0              0

          Carnegie
96-4035   Institute         03/25/96             0              0

          Biological
          Sciences
          Curriculum
96-4036   Study             03/25/96             0              0

          Center for
          American
96-4037   Archeology        03/25/96             0              0

          Joint Council
          on Economic
96-4038   Education         03/21/96             0              0

          Children's
96-4039   Museum, Inc.      03/25/96             0              0

          Berkeley
          Geochronology
96-4040   Center            03/21/96             0              0

          American
          Statistical
96-4041   Association       03/25/96             0              0

          American
          Study of
          Physics
96-4042   Teachers          03/25/96             0              0


          Denver
          Audubon
96-4043   Society           03/26/96             0              0

          American
          Society
          of Plant
96-4044   Physiologists     03/26/96             0              0

          National
          Public
96-4045   Radio             03/27/96             0              0

          Bigelow
          Laboratory
          for Ocean
96-4046   Sciences          03/27/96             0              0



Other Federal Audits

We processed 154 reports provided by other federal agencies.  Those
reports included audit coverage of NSF programs.  The following
reports contained questioned costs that required NSF followup.


                         Date Report    Questioned     Unsupported
Number    Grantee             Issued         Costs           Costs

          Northwest
          Research
96-5003   Associates, Inc.  01/23/96         3,390               0

          MPC
96-5004   Corporation       02/27/96        64,757               0

          Meharry
          Medical
96-5005   College *         03/04/96             0               0

          University
96-5006   of Chicago        03/04/96         4,050             550

          University of
          Alabama at
96-5007   Huntsville        03/04/96           326               0

          University &
          Community
          College System
96-5016   of Nevada         03/06/96           242               0

          University of
96-5019   Maine System      03/06/96         1,579               0

          University of
96-5020   Pennsylvania      03/06/96        13,716          13,716

          University of
96-5024   Wisconsin System  03/06/96       177,669               0

          University of
96-5033   Alabama/
          Birmingham        03/13/96           275               0

96-5034   Harvard
          University        03/13/96           719               0

          American Indian
          Higher Education
96-5037   Consortium        03/25/96         1,030           1,030

          New Mexico
96-5040   MESA              03/20/96        18,302             934

          Lawrence
96-5042   University        03/20/96         1,240           1,240

          University
96-5070   of Alaska         03/21/96        39,046               0

          Morehouse
          School of
96-5092   Medicine *        03/25/96             0               0

          Colby
96-5108   College           03/27/96           431               0

          Grand Valley
          State
96-5143   University        03/28/96            60               0

96-5154   Union College     03/29/96         1,610               0



*  Referred to management because of significant issues that may
affect NSF awards.



Surveys



                         Date Report    Questioned     Unsupported
Number    Grantee             Issued         Costs           Costs

          University
          Corporation
          for Atmospheric
96-6001   Research (UCAR)   11/19/95             0               0

          Monterey Bay
          Aquarium Research
96-6002   Institute         01/26/96             0               0



STATISTICAL INFORMATION REQUIRED BY THE
INSPECTOR GENERAL ACT OF 1978, AS AMENDED


Table I.  Audit Reports Issued With Questioned Costs


                                        Questioned     Unsupported
                              Number         Costs           Costs

A.   For which no management
     decision has been made
     by the commencement of
     the reporting period          75    6,158,529       1,374,942

B.   That were issued during
     the reporting period          46    4,599,848       2,566,231

C.   Adjustments to questioned
     costs resulting from
     resolution activities          1       64,151               0

Subtotals of A+B+C                122   10,822,528       3,941,173

D.   For which a management
     decision was made during
     the reporting period          59    1,333,984         128,199

     (i) dollar value of
     disallowed costs              N/A     760,989             N/A

     (ii) dollar value of
     costs not disallowed          N/A     572,995             N/A

E.   For which no management
     decision has been made
     by the end of the
     reporting period               63   9,488,544       3,812,974

Report for which no management
decision was made within
6 months of issuance                21   4,914,076       1,261,998



INSPECTOR GENERAL REPORTS


Table II.  Audit Reports Issued With Recommendations for Better Use
of Funds


                                                            Dollar
                                                             Value

A.   For which no management decision
     has been made by the commencement
     of the reporting period                             9,925,000

B.   Recommendations that were issued
     during the reporting period--
     (these were issued in five reports)                 8,410,000

Subtotal of A+B                                         18,335,000

C.   For which a management decision was
     made during the reporting period                     1,800,00

          (i) dollar value of recommendations
          that were agreed to by management

               based on proposed management
               action                                      986,000

               based on proposed legislative
               action                                            0

          (ii) dollar value of recommendations
          that were not agreed to by management            814,000

D.   For which no management decision had been
     made by the end of the reporting period            16,535,000

Report for which no management decision was
made within 6 months of issuance                         8,125,000


Funds Put To Better Use--Items Over 6 Months
Old With Outstanding Recommendations

                                   Issue       Dollar
                                    Date        Value

Logistics Issues Related
to the Antarctic Program         05/31/95     4,000,000


Fees Paid to Nonprofit
Organization                     09/21/95     4,125,000



EXTERNAL AUDIT REPORTS WITH
OUTSTANDING MANAGEMENT DECISIONS

This section identifies audit reports involving NSF awards where
management had not made a final decision on the corrective action
necessary for report resolution within 6 months of the report's
issue date.  CPO is tasked with making management's decisions
concerning external audit reports.  At the end of the reporting
period, there were 21 audit reports with questioned costs that were
not resolved.  The status of systemic recommendations that involve
internal NSF management are described in the Additional Performance
Measure.

Management Decision:  Management's evaluation of audit findings and
recommendations and issuance of a final decision concerning
management's response to such findings and recommendations.


Report                        Date Report    Questioned
Number         Title               Issued         Costs     Status


          Aurora Flight
          Sciences
94-1038   Corporation            08/08/94       207,482          1

          Apeldyn
94-1046   Corporation            09/08/94        19,820          1

          Better
94-1067   Education, Inc.        09/30/94        17,563          2

94-1070   Chemludens             09/30/94        72,952          2

          BBN Systems
          and Technologies
95-1022   Corporation            03/06/95       122,067          2

95-1028   General Atomics        03/27/95     2,933,428          3

          BIOSYM
95-1029   Technologies, Inc.     03/27/95        83,964          4

          Rowe-Deines
95-1039   Instruments, Inc.      03/27/95        58,437          4

          Mr. Wizard
95-1042   Foundation             03/31/95       157,780          1

          H-Tech
95-1045   Laboratories           03/31/95        11,821          1

          Virginia State
          Department of
95-1048   Education              09/01/95       317,664          1

          ASA/Edison
          Chouest
95-1051   Offshore, Inc.         09/15/95       646,266          1

95-4077   Playing to Win         09/05/95        24,260          1


          Zoological Society
95-6003   of Philadelphia        09/12/95           996          6

          University of
95-5599   Hawaii (FY 1993)       06/13/95        31,104          5

          University of
95-5645   Hawaii (FY 1992)       06/21/95         7,297          5

          State of
95-5722   South Dakota           09/22/95       113,204          1

          American Association
          for the Advancement
95-6007   of Science             09/25/95        29,355          1

          Cold Spring Harbor
95-6014   Laboratory             09/27/95        39,122          1

          National Gardening
95-6022   Association            09/25/95         9,494          1

          University
          Corporation
          for Atmospheric
95-6039   Research               09/27/95        10,000          5



STATUS CODES

1 = Resolution is progressing with final action expected in next
     reporting period.
2 = Information requested from grantee not yet received in full.
3 = Resolution pending negotiations.
4 = Site Visit required and scheduled.
5 = Another federal agency must complete work before NSF can make
     final resolution determination.
6 = Grant being amended.


ADDITIONAL PERFORMANCE MEASURE


As required by the Inspector General Act of 1978, we provide tables
in each Semiannual Report to the Congress that give statistical
information on work conducted by our audit and investigation units.

The General Accounting Office and OMB suggested that Offices of
Inspector General develop additional performance measures that
provide information about their activities.  As a result, we
developed an additional performance measure to better explain the
work of our office.

OIG staff members regularly review NSF's internal operations.
These reviews often result in systemic recommendations that are
designed to improve the economy and efficiency of NSF operations.

We routinely track these systemic recommendations and report to
NSF's Director and Deputy Director quarterly about the status of
our recommendations.  The following table provides statistical
information about the status of all systemic recommendations that
involve NSF's internal operations.  The statistics demonstrate that
NSF management has generally agreed to resolve our systemic
recommendations in a reasonable manner.



Status of Systemic Recommendations
That Involve Internal NSF Management


Open Recommendations


Recommendations Open at the Beginning
of the Reporting Period                                     37

New Recommendations Made During Reporting Period            43

Total Recommendations to be Addressed                       80



Management Resolution of Recommendations 1


Recommendations Awaiting Management Resolution              41

Recommendations Resolved by Management                      39

     Management Agrees to Take Reasonable Action            80

     Management Decides No Action is Required                0



Final Action on OIG Recommendations 2


Final Action Completed                                      21

Recommendations Open at End of Period                       59



1 "Management Resolution" occurs when management completes its
evaluation of an OIG recommendation and issues its official
response identifying the specific action that will be implemented
in response to the recommendation.

2 "Final Action" occurs when management has completed all actions
it has decided are appropriate to address an OIG recommendation.



Aging of Open Recommendations


Awaiting Management Resolution

     0 through 6 Months                                     41

     7 through 12 Months                                     0

     more than 12 Months                                     0



Awaiting Final Action After Resolution


     0 through 6 Months                                      0

     7 through 12 Months                                    11

     13 through 18 Months                                    0

     19 through 24 Months                                    2

     more than 24 Months                                     5



Recommendations Where Management Decides No Action is Required

None to report during this period.


Recommendations Awaiting Management Resolution for More Than 12
Months

None to report during this period.



Recommendations Awaiting Final Action for More Than 24 Months


1.   In Report Number OAO-15-04-88, "Review of the NSF Computer
Security Program," April 15, 1988, we recommended that a risk
analysis for computer operations be performed and a contingency
plan consistent with published guidelines be developed.  The
responsible office is preparing the contingency plan and plans to
allocate additional resources to facilitate the plan's completion.
Although the delays in implementation are extensive, no losses have
resulted.

2.   By report "Review of NSFNET" dated March 23, 1993, concerning
the management and control of the National Science Foundation
Network (NSFNET), we recommended that NSF ensure that an audit is
conducted of the company that manages NSFNET to verify that certain
funds have been distributed appropriately.  NSF management decided
to delay the audit until all of the funds in the infrastructure
pool are expended.  NSF now expects that the audit will be
conducted in April 1997.

3.   In Semiannual Report Number 8 (page 33), we recommended that
NSF issue ethics regulations that address concerns specific to NSF
employees.  OGC drafted these regulations and they were recently
cleared by the Office Government Ethics.  The NSF ethics official
has prepared a draft decision paper seeking approval from NSF
management to issue the regulations.  OGC expects to issue these
regulations soon.

4.   In a September 29, 1993, memorandum, we recommended that all
reviewers be more clearly informed, in writing, of all of the
requirements of NSF's policy regarding the integrity of the
confidential peer review process.  The goal was to improve the
review of proposals submitted to NSF.  Language to address this
goal has been fully incorporated in revised NSF reviewer forms.
These forms are in the clearance process along with other proposed
changes to the forms.


Prepared by:


Office of Inspector General
National Science Foundation


For additional copies,
write:


Office of Inspector General
4201 Wilson Boulevard
Arlington, VA  22230


For additional information,
call:


Audit                                             (703) 306-2001

Investigations                                    (703) 306-2001

Oversight (including misconduct in science
and inspections)                                  (703) 306-2001

Legal                                             (703) 306-2100

Electronic Mail Hotline                           oig@nsf.gov
